No. 19-631

In the Supreme Court of the United States
WILLIAM P. BARR, ATTORNEY GENERAL;
FEDERAL COMMUNICATIONS COMMISSION,
PETITIONERS

v.
AMERICAN ASSOCIATION OF POLITICAL
CONSULTANTS, INC., ET AL.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

JOINT APPENDIX
NOEL J. FRANCISCO
Solicitor General
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

Counsel of Record
for Petitioners

ROMAN MARTINEZ
Latham & Watkins, LLP
555 Eleventh Street, N.W.
Washington, D.C. 20004
roman.martinez@lw.com
(202) 637-3377

Counsel of Record
for Respondents

PETITION FOR A WRIT OF CERTIORARI FILED: NOV. 14, 2019
CERTIORARI GRANTED: JAN. 10, 2020

TABLE OF CONTENTS

Page
Court of appeals docket entries ............................................. 1
District court docket entries .................................................. 6
Declaration of Alana Joyce in support of standing by
American Association of Political Consultants ............. 15
Declaration of Brad Martin in support of standing by
Democratic Party of Oregon ........................................... 18
Declaration of Dean Debnam in support of standing by
Public Policy Polling ........................................................ 21
Declaration of Niger Innis in support of standing by
Tea Party Forward PAC ................................................. 24
Declaration of Karen Deal in support of standing by
Washington State Democratic Central Committee ...... 27
First Amended Complaint (Aug. 5, 2016) ........................... 30
Declaration of Alana Joyce in support of standing by
American Association of Political Consultants ............. 49
Declaration of Brad Martin in support of standing by
Democratic Party of Oregon ........................................... 54
Declaration of Dean Debnam in support of standing by
Public Policy Polling ........................................................ 58
Declaration of Niger Innis in support of standing by
Tea Party Forward PAC ................................................. 62
Declaration of Karen Deal in support of standing by
Washington State Democratic Central Committee ...... 66
Plaintiffs’ response to defendants’ motion to dismiss
first amended complaint (Sept. 23, 2016) ....................... 70
Plaintiffs’ brief in support of motion for summary
judgment (May 19, 2017) ................................................. 88
Plaintiffs’ response and reply to defendants’
memorandum in opposition to plaintiffs’ motion for
summary judgment and in support of defendants’
cross-motion for summary judgment (July 5, 2017) ..... 97
(I)

II
Table of Contents—Continued:

Page

Appellants’ court of appeals opening brief ....................... 104
Appellants’ court of appeals reply brief ............................ 114

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

Docket No. 18-1588
AMERICAN ASSOCIATION OF POLITICAL CONSULTANTS,
INC.; DEMOCRATIC PARTY OF OREGON, INC.;
PUBLIC POLICY POLLING, LLC; WASHINGTON STATE
DEMOCRATIC CENTRAL COMMITTEE; TEA PARTY
FORWARD PAC, PLAINTIFFS-APPELLANTS
v.
FEDERAL COMMUNICATIONS COMMISSION;
WILLIAM P. BARR, IN HIS OFFICIAL CAPACITY
AS ATTORNEY GENERAL OF THE UNITED STATES,
DEFENDANTS-APPELLEES
DOCKET ENTRIES
DATE

DOCKET
NUMBER

5/24/18

1

PROCEEDINGS

Case docketed. Originating case
number: 5:16-cv-00252-D. Case
manager:
AWalker.
[18-1588]
AW [Entered: 05/24/2018 09:33
AM]
* * * * *

7/3/18

15

BRIEF by Appellants American
Association of Political Consultants,
Inc., Democratic Party of Oregon,
Inc., Public Policy Polling, LLC and
Washington State Democratic Central Committee in electronic and
(1)

2
DATE

DOCKET
NUMBER

PROCEEDINGS

paper format.
Type of Brief:
OPENING. Method of Filing Paper Copies: courier. Date Paper Copies Mailed, Dispatched, or
Delivered to Court: 07/03/2018.
[1000323219] [18-1588] William
Raney [Entered: 07/03/2018 10:50
AM]
7/3/18

16

Joint FULL ELECTRONIC APPENDIX and full paper appendix
by Appellants American Association
of Political Consultants, Inc., Democratic Party of Oregon, Inc., Public
Policy Polling, LLC, Washington
State Democratic Central Committee and Appellees FCC and Jefferson B. Sessions III. Method of Filing Paper Copies: courier. Date
paper copies mailed dispatched or
delivered to court:
07/03/2018.
[1000323229] [18-1588] William
Raney [Entered: 07/03/2018 10:55
AM]
* * * * *

8/23/18

21

BRIEF by Appellees FCC and Jefferson B. Sessions III in electronic
and paper format. Type of Brief:
RESPONSE. Method of Filing
Paper Copies: mail. Date Paper
Copies Mailed, Dispatched, or
Delivered to Court: 08/23/2018.

3
DATE

DOCKET
NUMBER

PROCEEDINGS

[1000354318] [18-1588] Lindsey
Powell [Entered: 08/23/2018 01:43
PM]
* * * * *
9/13/18

25

BRIEF by Appellants American
Association of Political Consultants,
Inc., Democratic Party of Oregon,
Inc., Public Policy Polling, LLC and
Washington State Democratic Central Committee in electronic and
paper format. Type of Brief: REPLY.
Method of Filing Paper
Copies: courier. Date Paper Copies Mailed, Dispatched, or Delivered
to Court: 09/14/2018. [1000367175]
[18-1588] William Raney [Entered:
09/13/2018 05:10 PM]
* * * * *

12/12/18

37

ORAL ARGUMENT heard before
the Honorable Robert B. King,
Barbara Milano Keenan and A.
Marvin Quattlebaum, Jr. Attorneys arguing case: Mr. William
Edward Raney, I for Appellants
American Association of Political
Consultants, Inc., Democratic Party
of Oregon, Inc., Public Policy Polling, LLC and Washington State
Democratic Central Committee and
Linsey Powell for Appellees FCC

4
DATE

DOCKET
NUMBER

PROCEEDINGS

and Matthew G. Whitaker. Courtroom Deputy:
Cathy Poulsen.
[1000419687] [18-1588] CP [Entered: 12/12/2018 01:19 PM]
* * * * *
4/24/19

39

PUBLISHED AUTHORED OPINION filed. Originating case number: 5:16-cv-00252-D. [1000499370].
[18-1588] Annotation added reflecting Supreme Court history.—
[Edited: 01/14/2020 by EB] AW
[Entered: 04/24/2019 08:29 AM]

4/24/19

40

JUDGMENT ORDER filed. Decision:
Vacated and remanded.
Originating case number: 5:16-cv00252-D. Entered on Docket Date:
04/24/2019.
[1000499375] Copies
to all parties and the district court/
agency. [18-1588] AW [Entered:
04/24/2019 08:33 AM]

6/6/19

41

PETITION for rehearing en banc
by American Association of Political
Consultants, Inc., Democratic Party
of Oregon, Inc., Public Policy Polling, LLC and Washington State
Democratic Central Committee.
[18-1588] William Raney [Entered:
06/06/2019 04:08 PM]

5
DATE

DOCKET
NUMBER

6/7/19

42

Mandate stayed pending ruling on
petition for rehearing or rehearing
en banc. [18-1588] AW [Entered:
06/07/2019 07:43 AM]

6/10/19

43

PETITION for rehearing en banc
by William P. Barr. [18-1588] Lindsey Powell [Entered: 06/10/2019
03:48 PM]

6/21/19

44

COURT ORDER filed [1000534483]
denying Motion for rehearing en
banc [43], denying Motion for rehearing en banc [41] Copies to all
parties. [18-1588] AW [Entered:
06/21/2019 07:58 AM]

7/1/19

45

Mandate issued.
Referencing:
[40] Judgement order, [39] published authored Opinion. Originating case number: 5:16-cv-00252-D.
[18-1588] AW [Entered: 07/01/2019
07:37 AM]

PROCEEDINGS

* * * * *
11/15/19

48

SUPREME COURT REMARK—
petition for writ of certiorari filed.
11/14/2019. 19-631. [18-1588] EB
[Entered: 11/18/2019 03:01 PM]

1/13/20

49

SUPREME COURT REMARK—
petition for writ of certiorari granted.
01/13/2020 [18-1588] EB [Entered:
01/13/2020 04:53 PM]

6
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NORTH CAROLINA
(WESTERN DIVISION)

Docket No. 5:16-cv-00252-D
AMERICAN ASSOCIATION OF POLITICAL CONSULTANTS,
INC.; DEMOCRATIC PARTY OF OREGON, INC.;
PUBLIC POLICY POLLING, LLC; WASHINGTON STATE
DEMOCRATIC CENTRAL COMMITTEE, PLAINTIFFS
v.
FEDERAL COMMUNICATIONS COMMISSION;
JEFFERSON SESSIONS, IN HIS OFFICIAL CAPACITY
AS ATTORNEY GENERAL OF THE UNITED STATES,
DEFENDANTS

DOCKET ENTRIES
DATE

DOCKET
NUMBER

5/12/16

1

PROCEEDINGS

COMPLAINT against Loretta
Lynch (Filing fee $400 receipt
number 0417-3681161.), filed by Tea
Party Forward PAC, American Association of Political Consultants,
Inc., Public Policy Polling, LLC,
Democratic Party of Oregon, Inc.,
Washington State Democratic Central Committee.
(Attachments:
# 1 Exhibit—Index of Exhibits/
Attachments, # 2 Exhibit A—
Declaration of Alana Joyce, # 3 Exhibit B—Declaration of Brad Martin, # 4 Exhibit C—Declaration of

7
DATE

DOCKET
NUMBER

PROCEEDINGS

Dean Debnam, # 5 Exhibit D—
Declaration of Niger Innis, # 6 Exhibit E—Declaration of Karen Deal,
# 7 Civil Cover Sheet, # 8 Proposed Summons) (George, Charles)
(Entered: 05/12/2016)
* * * * *
7/15/16

15

MOTION to Dismiss for Lack of
Jurisdiction filed by Loretta Lynch.
Attachments: # 1 Text of Proposed Order) (Heaps, Bailey) (Entered: 07/15/2016)

7/15/16

16

Memorandum in Support regarding
15 MOTION to Dismiss for Lack
of Jurisdiction filed by Loretta
Lynch. (Attachments: # 1 Exhibit A, # 2 Exhibit B, # 3 Exhibit
C, # 4 Exhibit D, # 5 Exhibit E,
# 6 Exhibit F, # 7 Exhibit G,
# 8 Exhibit H, # 9 Exhibit I)
Heaps,
Bailey)
(Entered:
07/15/2016)
* * * * *

8/5/16

18

AMENDED COMPLAINT against
All Defendants, filed by Tea Party
Forward PAC, American Association
of Political Consultants, Inc., Public
Policy Polling, LLC, Democratic
Party of Oregon, Inc., Washington
State Democratic Central Commit-

8
DATE

DOCKET
NUMBER

PROCEEDINGS

tee. (Attachments: # 1 Index
Index of Exhibits/Attachments,
# 2 Exhibit Exhibit A—Declaration
of Alana Joyce in Support of Standing by American Association of Political Consultants, # 3 Exhibit Exhibit B Declaration of Brad Martin
in Support of Standing by Democratic Party of Oregon, # 4 Exhibit
Exhibit C—Declaration of Dean
Debnam in Support of Standing by
Public Policy Polling, # 5 Exhibit
Exhibit D—Declaration of Niger
Innis in Support of Standing by Tea
Party Forward PAC, # 6 Exhibit
Exhibit E—Declaration of Karen
Deal in Support of Standing by
Washington State Democratic
Central Committee, # 7 Proposed
Summons Proposed Summons
FCC) (Raney, William) (Entered:
08/05/2016)
* * * * *
9/2/16

22

MOTION to Dismiss for Lack of Jurisdiction Plaintiffs’ First Amended
Complaint filed by Federal Communications Commission, Loretta
Lynch. (Attachments: # 1 Text
of Proposed Order) (Heaps, Bailey)
(Entered: 09/02/2016)

9
DATE

DOCKET
NUMBER

9/2/16

23

Memorandum in Support regarding
22 MOTION to Dismiss for Lack
of Jurisdiction Plaintiffs’ First
Amended Complaint filed by Federal Communications Commission,
Loretta Lynch.
(Attachments:
# 1 Exhibit A, # 2 Exhibit B,
# 3 Exhibit C, # 4 Exhibit D)
(Heaps,
Bailey)
(Entered:
09/02/2016)

9/23/16

24

RESPONSE in Opposition regarding 22 MOTION to Dismiss for
Lack of Jurisdiction Plaintiffs’ First
Amended Complaint filed by American Association of Political Consultants, Inc., Democratic Party of
Oregon, Inc., Public Policy Polling,
LLC, Tea Party Forward PAC,
Washington State Democratic Central Committee. (Raney, William)
(Entered: 09/23/2016)

10/7/16

25

REPLY to Response to Motion regarding 22 MOTION to Dismiss for
Lack of Jurisdiction Plaintiffs’ First
Amended Complaint filed by Federal Communications Commission,
Loretta Lynch. (Heaps, Bailey)
(Entered: 10/07/2016)

PROCEEDINGS

* * * * *

10
DATE

DOCKET
NUMBER

3/15/17

26

PROCEEDINGS

ORDER denying as moot 15 Motion to Dismiss for Lack of Jurisdiction; denying 22 Motion to Dismiss for Lack of Jurisdiction. Pursuant to Fed. R. Civ. P. 25(d), the
court ORDERS that Jefferson
Sessions in his official capacity as
Attorney General of the United
States, be substituted for Loretta
Lynch in her official capacity as
Attorney General of the United
States. Signed by Chief Judge
James C. Dever III on 3/15/2017.
(Briggeman,
N.)
(Entered:
03/15/2017)
* * * * *

5/19/17

30

MOTION for Summary Judgment
filed by American Association of
Political Consultants, Inc., Democratic Party of Oregon, Inc., Public
Policy Polling, LLC, Tea Party
Forward PAC, Washington State
Democratic Central Committee.
(Raney,
William)
(Entered:
05/19/2017)

5/19/17

31

Memorandum in Support regarding
30 MOTION for Summary Judgment filed by American Association
of Political Consultants, Inc., Democratic Party of Oregon, Inc., Public
Policy Polling, LLC, Tea Party

11
DATE

DOCKET
NUMBER

PROCEEDINGS

Forward PAC, Washington State
Democratic Central Committee.
(Raney,
William)
(Entered:
05/19/2017)
* * * * *
6/19/17

33

Memorandum in Opposition regarding 30 MOTION for Summary
Judgment filed by Federal Communications Commission, Jefferson
Sessions.
(Brown, Aimee) (Entered: 06/19/2017)

6/19/17

34

Cross MOTION for Summary
Judgment filed by Federal Communications Commission, Jefferson
Sessions.
(Brown, Aimee) (Entered: 06/19/2017)

6/19/17

35

Memorandum in Support regarding
34 Cross MOTION for Summary
Judgment filed by Federal Communications Commission, Jefferson
Sessions.
(Brown, Aimee) (Entered: 06/19/2017)

7/5/17

36

RESPONSE in Opposition regarding 34 Cross MOTION for Summary Judgment and Reply to Defendants’ Opposition to Plaintiffs’
Motion for Summary Judgment
filed by American Association of
Political Consultants, Inc., Democratic Party of Oregon, Inc., Public

12
DATE

DOCKET
NUMBER

PROCEEDINGS

Policy Polling, LLC, Tea Party Forward PAC, Washington State Democratic Central Committee. (Attachments: # 1 Exhibit A—Order
from USDC Middle District of
Florida, Tampa Division) (Raney,
William) Modified on 7/6/2017—
added exhibit description in docket
text. (Briggeman, N.) (Entered:
07/05/2017)
7/11/17

37

MOTION to Withdraw Tea Party
Forward PAC as a Party filed by
Tea Party Forward PAC. (Attachments: # 1 Exhibit Proposed Order) (Raney, William) (Entered:
07/11/2017)

7/11/17

38

ORDER granting 37 Motion to
Withdraw. The caption shall be
modified to reflect the withdrawal
of Tea Party Forward PAC as a
party.
Signed by Chief Judge
James C. Dever III on 7/11/2017.
(Briggeman,
N.)
(Entered:
07/12/2017)

7/20/17

39

REPLY to Response to Motion regarding 34 Cross MOTION for
Summary Judgment filed by Federal Communications Commission,
Jefferson Sessions. (Brown, Aimee)
(Entered: 07/20/2017)

13
DATE

DOCKET
NUMBER

PROCEEDINGS

* * * * *
3/26/18

41

ORDER denying 30 Motion for
Summary Judgment; granting
34 Motion for Summary Judgment.
Signed by Chief Judge James C.
Dever III on 3/24/2018. (Briggeman, N.) (Entered: 03/26/2018)

3/26/18

42

JUDGMENT—IT IS ORDERED,
ADJUDGED, AND DECREED
that the Court entered an order on
7/11/2017 that withdrew the Plaintiff Tea Party Forward PAC as a
Party. IT IS FURTHER ORDERED, ADJUDGED, AND DECREED that the court GRANTS
defendants’ motion for summary
judgment [D.E. 34] and DENIES
plaintiffs’ motion for summary
judgment [D.E. 30]. Signed by
Peter A. Moore, Jr., Clerk of Court
on 3/26/2018. (Briggeman, N.) (Entered: 03/26/2018)

5/23/18

43

Notice of Appeal filed by American
Association of Political Consultants,
Inc., Democratic Party of Oregon,
Inc., Public Policy Polling, LLC,
Washington State Democratic Central Committee as to 41 Order on

14
DATE

DOCKET
NUMBER

PROCEEDINGS

Motion for Summary Judgment,
42 Judgment,. Filing fee, receipt
number 0417-4518563.
(Raney,
William) (Entered: 05/23/2018)
* * * * *

15
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NORTH CAROLINA

Civil Action No.
AMERICAN A SSOCIATION OF POLITICAL CONSULTANTS,
INC., DEMOCRATIC PARTY OF OREGON, INC.;
PUBLIC POLICY POLLING, LLC; TEA PARTY FORWARD
PAC; AND WASHINGTON STATE DEMOCRATIC CENTRAL
COMMITTEE, PLAINTIFFS
v.
LORETTA LYNCH, IN HER OFFICIAL CAPACITY
AS ATTORNEY GENERAL OF THE UNITED STATES,
DEFENDANT

[Filed: Apr. 28, 2016]
DECLARATION OF ALANA JOYCE IN SUPPORT
OF STANDING BY AMERICAN ASSOCIATION
OF POLITICAL CONSULTANTS

COMES NOW Alana Joyce, being duly sworn, and
states as follows:
1. My name is Alana Joyce. I am over the age of
18, am authorized to make this affidavit on behalf of
American Association of Political Consultants, Inc.
(“AAPC”), and am otherwise competent to make this
affidavit.
2. I make this affidavit based on my own personal
knowledge.

16
3. I have been the Executive Director of AAPC
since 2011.
4. In my role as Executive Director, I oversee all
AAPC general management, membership growth and
retention, and annual conference functions including the
recognition of excellence in political consulting practices.
5. AAPC is incorporated in the District of Columbia
with its principal office in McLean, Virginia.
6. AAPC is organized as a tax-exempt nonprofit organization under § 501(c)(6) of the Internal Revenue
Code.
7. AAPC is the largest bipartisan association of political and public affairs professionals in the world.
8. AAPC provides education for its members and
advocates for the protection of political free speech.
9. AAPC members include individuals and businesses that handle all aspects of campaigning including
political fundraisers, political organizers, persons who
conduct and analyze political polls, i.e. political pollsters
and opinion researchers, and persons who organize get
out the vote (GOTV) efforts
10. AAPC members make calls to registered voters
on their cell phones to solicit political donations.
11. AAPC members make calls to persons on their
cell phones to discuss, persuade, inform and measure
opinions on political and governmental issues.
12. AAPC members make calls to registered voters
on their cell phones to get out the vote (GOTV).

17
13. The interest of AAPC’s members in soliciting political donations, discussing political and governmental
issues, measuring political opinion and supporting GOTV
efforts by cell phone is connected to AAPC’s organizational purpose, which, in large part, is to defend political
free speech and provide education and resources regarding same to its members.
14. AAPC, therefore has suffered an injury in fact
and has organizational standing to bring suit on behalf
of its members in the above-entitled action.
FURTHER AFFIANT SAYETH NOT.
STATE OF VIRGINIA
COUNTY OF FAIRFAX
Dated at [Virginia], this [28] day of [Apr.], 2016.
/s/

ALANA M. JOYCE
ALANA JOYCE

Sworn to, subscribed and acknowledged in my presence
this [28th] day of [Apr.], 2016, by [Ashley DeWitt].
Notary Public
My Commission Expires:

[6-30-17]

18
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NORTH CAROLINA

Civil Action No.
AMERICAN A SSOCIATION OF POLITICAL CONSULTANTS,
INC.; DEMOCRATIC PARTY OF OREGON, INC.;
PUBLIC POLICY POLLING, LLC; TEA PARTY FORWARD
PAC; AND WASHINGTON STATE DEMOCRATIC CENTRAL
COMMITTEE, PLAINTIFFS
v.
LORETTA LYNCH, IN HER OFFICIAL CAPACITY
AS ATTORNEY GENERAL OF THE UNITED STATES,
DEFENDANT

[Filed: May 4, 2016]
DECLARATION OF BRAD MARTIN IN SUPPORT
OF STANDING BY DEMOCRATIC PARTY OF OREGON

COMES NOW Brad Martin, being duly sworn, and
states as follows:
1. My name is Brad Martin. I am over the age of
18, am authorized to make this affidavit on behalf of the
Democratic Party of Oregon (“DPO”), and am otherwise
competent to make this affidavit.
2. I make this affidavit based on my own personal
knowledge.
3. I have been Executive Director of DPO since 2013.

19
4. In my role as Executive Director, I am responsible for managing DPO’s internal operations, fundraising,
running “get-out-the-vote” campaigns, and recruiting and
electing Democrats among other duties.
5. DPO is located at 232 NE 9th Avenue, Portland,
Oregon 97232.
6. DPO is organized as a tax-exempt nonprofit organization under § 527 of the Internal Revenue Code.
7. DPO works to promote the interests of the
Democratic Party in the State of Oregon including
coordinating, organizing and electing Democratic candidates, adopting a party platform, ensuring the party’s
issues are enacted into law, and representing DPO to
the Democratic National Committee and to other states.
8. DPO makes calls to registered Democratic and
progressive non-affiliated voters on their cell phones to
discuss political and governmental issues, give voters
critical information to help them with the voting process, encourage voters to return their ballots by deadlines and vote for Democratic candidates, and solicit
political donations.
9. DPO, therefore, has a personal stake in the outcome of the action, has suffered an injury in fact, and
has standing to bring suit in the above-entitled action.
[Signatures on the following page.]

20
FURTHER AFFIANT SAYETH NOT.
STATE OF OREGON
COUNTY OF MULTNOMAH
Dated at [Portland, Oregon], this [4th] day of [May],
2016.
/s/

BRAD MARTIN
BRAD MARTIN

Sworn to, subscribed and acknowledged in my presence
this [4] day of [May], 2016, by [Bradley B. Martin].
/s/

BRYCE FONG SAETEURN
BRYCE FONG SAETEURN
Notary Public

My Commission Expires:

[9/2/2019]

21
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NORTH CAROLINA

Civil Action No.
AMERICAN A SSOCIATION OF POLITICAL CONSULTANTS,
INC.; DEMOCRATIC PARTY OF OREGON, INC.;
PUBLIC POLICY POLLING, LLC; TEA PARTY FORWARD
PAC; AND WASHINGTON STATE DEMOCRATIC CENTRAL
COMMITTEE, PLAINTIFFS
v.
LORETTA LYNCH, IN HER OFFICIAL CAPACITY
AS ATTORNEY GENERAL OF THE UNITED STATES,
DEFENDANT

[Filed: Apr. 26, 2016]
DECLARATION OF DEAN DEBNAM IN SUPPORT
OF STANDING BY PUBLIC POLICY POLLING

COMES NOW Dean Debnam, being duly sworn, and
states as follows:
1. My name is Dean Debnam. I am over the age of
18, am authorized to make this affidavit on behalf of
Public Policy Polling, LLC (“PPP”), and am otherwise
competent to make this affidavit.
2. I make this affidavit based on my own personal
knowledge.
3. I have been President and CEO of PPP since 2001.

22
4. PPP is a limited liability company located at
2912 Highwoods Blvd., Suite 201, Raleigh, North Carolina 27604.
5. In my role as President and CEO, I oversee all
PPP general management including polling and research for national political clients ranging from United
States Senate campaigns to major progressive advocacy
organizations.
6. PPP measures and tracks public opinion on candidates, campaigns, and other political issues with automated telephone surveys.
7. PPP makes calls to persons on their cell phones
on behalf of politicians, political organizations, unions,
consultants, and other organizations.
8. PPP, therefore, has a personal stake in the outcome of the action, has suffered are injury in fact, and
has standing to bring suit in the above-entitled action.

23
FURTHER AFFIANT SAYETH NOT.
STATE OF NORTH CAROLINA
COUNTY OF WAKE
Dated at [Raleigh, North Carolina], this [26th] day of
[Apr.], 2016.
/s/

DEAN DEBNAM
DEAN DEBNAM

Sworn to, subscribed and acknowledged in my presence
this [26th] day of [Apr.], 2016, by [Dean Debnam].
/s/

JULIA S. LACOLLE
Notary Public JULIA S. LACOLLE

My Commission Expires:

[5/20/2017]
[STAMP OMITTED]

24
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NORTH CAROLINA

Civil Action No.
AMERICAN A SSOCIATION OF POLITICAL CONSULTANTS,
INC.; DEMOCRATIC PARTY OF OREGON, INC.;
PUBLIC POLICY POLLING, LLC; TEA PARTY FORWARD
PAC; AND WASHINGTON STATE DEMOCRATIC CENTRAL
COMMITTEE, PLAINTIFFS
v.
LORETTA LYNCH, IN HER OFFICIAL CAPACITY
AS ATTORNEY GENERAL OF THE UNITED STATES,
DEFENDANT

[Filed: May 9, 2016]
DECLARATION OF NIGER INNIS IN SUPPORT
OF STANDING BY TEA PARTY FORWARD PAC

COMES NOW Niger Innis, being duly sworn, and
states as follows:
1. My name is Niger Innis. I am over the age of
18, am authorized to make this affidavit on behalf of the
Tea Party Forward PAC (“TPF”), and am otherwise
competent to make this affidavit.
2. I make this affidavit based on my own personal
knowledge.
3. I have been the Chairman of TPF since 2015.

25
4. In my role as Chairman, I am responsible for the
customary oversight of activities, approval of plans and
program, and I am the acting spokesperson in media
and other internal and external communications.
5. TPF is located at 211 N. Union St., Suite 100, Alexandria, Virginia 22314.
6. TPF is organized as a tax-exempt nonprofit organization under § 527 of the Internal Revenue Code.
7. TPF works to promote the interests of the Tea
Party including reforming all political parties and government to advance the core principles of the Founding
Fathers, recruiting Americans who share that same
vision, and encouraging grassroots operations to vote
and elect candidates who represent these ideals.
8. TPF makes calls to potential voters on their cell
phones to solicit political donations and discuss political
and governmental issues.
9. TPF, therefore, has a personal stake in the outcome of the action, has suffered an injury in fact, and
has standing to bring suit in the above-entitled action.
[Signatures on the following page.]

26
FURTHER AFFIANT SAYETH NOT.
STATE OF VIRGINIA
COUNTY OF FAIRFAX
Dated at [North Las Vegas @ WF], this [9] day of
[May], 2016.
/s/

NIGER R. INNIS
NIGER INNIS

Sworn to, subscribed and acknowledged in my presence
this
day of
, 2016, by
.
Notary Public
My Commission Expires:

27
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NORTH CAROLINA

Civil Action No.
AMERICAN A SSOCIATION OF POLITICAL CONSULTANTS,
INC.; DEMOCRATIC PARTY OF OREGON, INC.;
PUBLIC POLICY POLLING, LLC; TEA PARTY FORWARD
PAC; AND WASHINGTON STATE DEMOCRATIC CENTRAL
COMMITTEE, PLAINTIFFS
v.
LORETTA LYNCH, IN HER OFFICIAL CAPACITY
AS ATTORNEY GENERAL OF THE UNITED STATES,
DEFENDANT

[Filed: Apr. 25, 2016]
DECLARATION OF KAREN DEAL IN SUPPORT
OF STANDING BY WASHINGTON STATE
DEMOCRATIC CENTRAL COMMITTEE

COMES NOW Karen Deal, being duly sworn, and
states as follows:
1. My name is Karen Deal. I am over the age of
18, am authorized to make this affidavit on behalf of
the Washington State Democratic Central Committee
(“WSDCC”), and am otherwise competent to make this
affidavit.
2. I make this affidavit based on my own personal
knowledge.

28
3. I have been the Executive Director of WSDCC
since 2014.
4. In my role as Executive Director, my duties include, but are not limited to, directing our political
program, staff management, and internal and external
outreach.
5. WSDCC is located at 615 2nd Avenue Suite 580,
Seattle, Washington 98104.
6. WSDCC is organized as a tax-exempt nonprofit
organization under § 527 of the Internal Revenue Code.
7. WSDCC works to elect Democrats, uphold Democratic values, and support Democrats across the state.
WSDCC members include elected officials, candidates
for office, activists, and voters.
8. WSDCC makes calls to registered voters on their
cell phones to discuss political and governmental issues
and to solicit political donations.
9. WSDCC, therefore, has a personal stake in the
outcome of the action, has suffered an injury in fact, and
has standing to bring suit in the above-entitled action.

29
FURTHER AFFIANT SAYETH NOT.
STATE OF WASHINGTON
COUNTY OF KING
Dated at [2:45 PM], this [25] day of [Apr.], 2016.
/s/

KAREN DEAL
KAREN DEAL

Sworn to, subscribed and acknowledged in my presence
this [25th] day of [Apr.], 2016, by [Karen Deal].
/s/
My Commission Expires:

ILLEGIBLE
Notary Public
[08/13/2018]

30
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NORTH CAROLINA
WESTERN DIVISION

Civil Action No. 5:16-cv-00252-D
AMERICAN A SSOCIATION OF POLITICAL CONSULTANTS,
INC.; DEMOCRATIC PARTY OF OREGON, INC.;
PUBLIC POLICY POLLING, LLC; TEA PARTY FORWARD
PAC; AND WASHINGTON STATE DEMOCRATIC CENTRAL
COMMITTEE, PLAINTIFFS
v.
LORETTA LYNCH, IN HER OFFICIAL CAPACITY
AS ATTORNEY GENERAL OF THE UNITED STATES AND
FEDERAL COMMUNICATIONS COMMISSION,
A FEDERAL AGENCY, DEFENDANTS
Filed: Aug. 5, 2016
FIRST AMENDED COMPLAINT

COMES NOW American Association of Political
Consultants, Inc. (“AAPC”), Democratic Party of Oregon, Inc. (“DPO”), Public Policy Polling, LLC (“PPP”),
Tea Party Forward PAC (“TPF”), and Washington
State Democratic Central Committee (“WSDCC”) (collectively “Plaintiffs”) by and through counsel, and allege the following:
I.

NATURE OF THE CASE

1. This is a civil action wherein Plaintiffs pray for
declaratory judgment as well as preliminary and permanent injunctions to restrain Defendants from acting

31
under color of law to deprive Plaintiffs of rights secured
to them by the First Amendment to the United States
Constitution.
2. Specifically, Plaintiffs allege that the ban on
certain calls to cell phones in the Telephone Consumer
Protection Act (“TCPA”), 47 U.S.C. § 227(b)(1)(A)(iii)
(hereinafter the “cell phone call ban”), is an unconstitutional violation of their First Amendment rights because it is content-based and cannot withstand strict
scrutiny.
3. Congress and the Federal Communications
Commission (“FCC”) have shown that they intend to
continue to create content-based exemptions to the cell
phone call ban based both on the content of the speech
involved and the identity of certain favored speakers.
The TCPA itself provides the FCC the power to do this
in the future. See infra ¶ 26. This history and the
FCC and Congress’ demonstrated ability and intent to
apply the cell phone call ban in a content-based way
shows that the cell phone call ban is unconstitutional.
4. This lawsuit is a challenge to a federal statute,
as it is content-based and regulates Plaintiffs’ fullyprotected, political speech. This is not a challenge to
FCC orders or regulations promulgated under that
statute.
II.

JURISDICTION

5. Jurisdiction is conferred upon this Court pursuant to 28 U.S.C. § 1331.

32
III. VENUE

6. Venue lies with this Court pursuant to 28 U.S.C.
§ 1391(e)(1)(C) because a plaintiff resides in this district
and this case does not involve real property.
IV. AUTHORITY FOR RELIEF

7. Authority for declaratory relief sought by Plaintiffs is conferred upon this Court by 28 U.S.C. §§ 2201
and 2202, and by Fed. R. Civ. P. 57.
V.

PARTIES

8. Plaintiff AAPC is a bipartisan, nonprofit association of political professionals located in McLean, Virginia and organized under § 501(c)(6) of the Internal
Revenue Code (“IRC”). AAPC provides education for
its members and advocates for the protection of political
free speech. AAPC members include political fundraisers, organizers, and persons who conduct and analyze
political polls, i.e. political pollsters and opinion researchers. AAPC members make calls to persons on
their cell phones to solicit political donations and to
advise on political and governmental issues. AAPC
members would make these calls to persons who did not
provide prior express consent to them using an automatic telephone dialing system (“ATDS”), artificial or
prerecorded voice but for the cell phone call ban and the
credible threat and potential for prosecution by the
federal government, states, or private persons or classes of persons1.
Indeed, our sitting President and a major political candidate in
the current presidential race are or have been defendants in TCPA
lawsuits seeking class action status. See Shamblin v. Obama for
Am., No. 8:13-cv-2428, 2015 U.S. Dist. Lexis 54849, *18 (M.D. Fla.
1

33
9. Plaintiff DPO is located in Portland, Oregon and
organized as a tax-exempt nonprofit organization under
§ 527 of the IRC. DPO works to promote the interests
of the Democratic Party in the State of Oregon including coordinating, organizing and electing Democratic
candidates. DPO makes calls to registered Democratic
and progressive non-affiliated voters on their cell phones
to advise on political and governmental issues, give
voters critical information to help them with the voting
process, encourage voters to return their ballots by
deadlines and vote for Democratic candidates, and
solicit political donations. DPO would make these calls
to persons who did not provide prior express consent to
it using an ATDS, artificial or prerecorded voice but for
the cell phone call ban and the credible threat and
potential for prosecution by the federal government,
states, or private persons or classes of persons.
10. Plaintiff PPP is a limited liability for-profit
company located in Raleigh, North Carolina. PPP
measures and tracks public opinion on candidates, campaigns, and other political issues with automated telephone surveys. PPP makes calls to persons on their
cell phones on behalf of politicians, political organizations, unions, consultants, and other organizations.
PPP would make these calls to persons who did not
provide prior express consent to it using an ATDS,
artificial or prerecorded voice but for the cell phone call
ban and the credible threat and potential for prosecution by the federal government, states, or private persons or classes of persons.

Apr. 27, 2015). See also Thorne v. Donald J. Trump for President,
Inc., No. 1:16-cv-4603 (N.D. Ill. Apr. 25, 2016).

34
11. Plaintiff TPF is located in Alexandria, Virginia
and organized as a tax-exempt nonprofit organization
under § 527 of the IRC. TPF works to promote the
interests of the Tea Party by reforming political parties
and government to advance the core principles of the
Founding Fathers, recruiting Americans who share
that same vision, and encouraging grassroots operations to vote and elect candidates who represent these
ideals. TPF makes calls to potential voters on their
cell phones to solicit political donations and advise on
political and governmental issues. TPF would make
these calls to persons who did not provide prior express
consent to it using an ATDS, artificial or prerecorded
voice but for the cell phone call ban and the credible
threat and potential for prosecution by the federal government, states, or private persons or classes of persons.
12. Plaintiff WSDCC is the Democratic Party in the
State of Washington and is located in Seattle, Washington. WSDCC is organized under § 527 of the IRC.
WSDCC works to elect Democrats, uphold Democratic
values, and support Democrats across the state.
WSDCC members include elected officials, candidates
for office, activists, and voters. WSDCC makes calls to
registered voters on their cell phones to advise on
political and governmental issues and to solicit political
donations. WSDCC would make these calls to persons
who did not provide prior express consent to it using an
ATDS, artificial or prerecorded voice but for the cell
phone call ban and the credible threat and potential for
prosecution by the federal government, states, or private persons or classes of persons.

35
13. Defendant Loretta Lynch (“Attorney General”)
heads the United States Department of Justice (“DOJ”)
which is the agency in the United States government
responsible for enforcement of federal law. In her
official capacity as Attorney General of the United
States, she enforces the law complained of in this action.
Plaintiffs sue her in her official capacity.
14. Defendant FCC is a part of the executive branch
of the United States government responsible for promulgation of regulations under the TCPA and enforcement
of its terms. 47 U.S.C. § 227(b)(2); 47 U.S.C. § 503(b).
VI. STANDING

15. Plaintiff AAPC has Article III standing as an
organization to bring suit on behalf of its members.
See revised Declaration of Alana Joyce in Support of
Standing, attached hereto as Exhibit A; see also Friends
of the Earth v. Laidlaw Envtl. Servs. Inc., 528 U.S. 167,
181 (2000); Summers v. Earth Island Inst., 555 U.S.
488, 498 (2009).
16. Plaintiff DPO has Article III standing to bring
suit as it has a personal stake in the outcome of the
action. See revised Declaration of Brad Martin in
Support of Standing, attached hereto as Exhibit B; see
also Lujan v. Defenders of Wildlife, 504 U.S. 555, 560
(1992).
17. Plaintiff PPP has Article III standing to bring
suit as it has a personal stake in the outcome of the
action. See revised Declaration of Dean Debnam in
Support of Standing, attached hereto as Exhibit C; see
also Lujan, 504 U.S. at 560.

36
18. Plaintiff TPF has Article III standing to bring
suit as it has a personal stake in the outcome of the
action. See revised Declaration of Niger Innis in Support of Standing, attached hereto as Exhibit D; see also
Lujan, 504 U.S. at 560.
19. Plaintiff WSDCC has Article III standing to
bring suit as it has a personal stake in the outcome of
the action. See revised Declaration of Karen Deal in
Support of Standing, attached hereto as Exhibit E; see
also Lujan, 504 U.S. at 560.
VII. STATEMENT OF FACTS

20. Congress passed the TCPA in 1991 as Pub. L.
No. 102-243, 105 Stat. 2394 (codified at 47 U.S.C. § 227)
to protect telephone subscribers’ privacy rights in connection with commercial telephone solicitations.
21. Congress instructed the FCC to account for the
“free speech protections embodied in the First Amendment of the Constitution” when considering the impact
of any restrictions on noncommercial communications.
TCPA, Pub. L. 102-243, § 2(13).
22. The TCPA states:
It shall be unlawful for any person within the United
States, or any person outside the United States if the
recipient is within the United States—
(A) to make any call (other than a call made for
emergency purposes or made with the prior express
consent of the called party) using any automatic
telephone dialing system or an artificial or prerecorded voice—
. . .

37
(iii) to any telephone number assigned to a paging
service, cellular telephone service, specialized mobile
radio service, or other radio common carrier service,
or any service for which the called party is charged
for the call, unless such call is made solely to collect a
debt owed to or guaranteed by the United States;
47 U.S.C. § 227(b)(1)(A)(iii); 47 C.F.R. § 64.1200(a)(1)(iii)
(the “cell phone call ban”).
23. The TCPA regulations define “emergency purposes” as “calls made necessary in any situation affecting the health and safety of consumers.” Id. at (f )(4)
(hereinafter the “emergency exemption”).
24. The TCPA defines “automatic telephone dialing
system” (“ATDS”) as “equipment which has the capacity to store or produce telephone numbers to be called,
using a random or sequential number generator; and to
dial such numbers.” 47 U.S.C. § 227(a)(1).
25. The FCC, the states, through their attorneys
general or otherwise, and private persons, including
classes of persons, can sue for actual or statutory
damages for violations of the cell phone call ban for
$500 or more per telephone call. Id. at (b)(3), (g);
47 U.S.C. § 503.
26. The TCPA provides that the FCC “shall prescribe regulations to implement the requirements of
this subsection. . . .” 47 U.S.C. § 227(b)(2).
27. In the 1992 Order regarding the implementation
of the TCPA, the FCC stated the purpose of its regulations under this subsection:

38
This R&O amends part 64 of the Commission’s rules
by adding § 64.1200 to restrict the use of automatic
telephone dialing systems and artificial or prerecorded
voice messages for telemarketing purposes or for
transmitting unsolicited telephone facsimile advertisements. The rules require that persons or entities making telephone solicitations establish procedures to protect residential subscribers from unwanted solicitations, and set forth exemptions to
certain prohibitions under this part. . . . The
rules are intended to impose reasonable restrictions
on autodialed or prerecorded voice telephone calls
consistent with considerations regarding public health
and safety and commercial speech and trade, and to
allow consumers to avoid unwanted telephone solicitations without unduly limiting legitimate telemarketing practices.
57 Fed. Reg. 48333 (Oct. 23, 1992).
28. Since 1992, the FCC and Congress have passed
at least six exemptions to the cell phone call ban which
apply based on the identity of the caller and/or the
content of the exempted calls.
29. In 2012, the FCC exempted from the cell phone
call ban “autodialed or prerecorded message calls by a
wireless carrier to its customer when the customer is
not charged.” 77 Fed. Reg. 34233, 34235 (June 11, 2012)
(hereinafter referred to as the “wireless exemption”).
30. In 2014, the FCC exempted from the cell phone
call ban prerecorded and ATDS calls for “package
delivery notifications to consumers’ wireless phones
either by voice or text . . . so long as those calls are
not charged to the consumer recipient, including not

39
being counted against the consumer’s plan limits on
minutes or texts, and comply with the conditions. . . .”
In the Matter of Cargo Airline Association Petition for
Expedited Declaratory Ruling, 29 FCC Rcd 3432, 3439
(Mar. 27, 2014) (hereinafter referred to as the “package
delivery exemption”).
31. In 2014, the FCC exempted from the cell phone
call ban prerecorded and ATDS “non-telemarketing
voice calls or text messages to wireless numbers . . .
[that] rely on a representation from an intermediary
that they have obtained the requisite consent from the
consumer.” In the Matter of GroupMe, Inc./Skype
Communications S.A.R.L., 29 FCC Rcd 3442, 3444
(Mar. 27, 2014) (hereinafter referred to as the “intermediary consent exemption”).
32. In 2015, the FCC exempted from the cell phone
call ban prerecorded and ATDS “non-telemarketing,
healthcare calls that are not charged to the called party” and “for which there is exigency and that have a
healthcare treatment purpose. . . .” In re Rules and
Regulations Implementing the Tel. Consumer Prot. Act
of 1991 et al., 30 FCC Rcd 7961, 8930-31 (July 10, 2015)
(hereinafter referred to as the “HIPAA exemption”).
33. In 2015, the FCC exempted from the cell phone
call ban prerecorded and ATDS calls regarding
“(1) ‘transactions and events that suggest a risk of fraud
or identity theft; (2) possible breaches of the security of
customers’ personal information; (3) steps consumers
can take to prevent or remedy harm caused by data
security breaches; and (4) actions needed to arrange for
receipt of pending money transfers.’ ” Id. at 8023
(hereinafter referred to as the “bank and financial
exemption”).

40
34. In 2015, Congress exempted from the cell phone
call ban prerecorded and ATDS calls “made solely to
collect a debt owed to or guaranteed by the United
States”. TCPA, Pub. L. No. 114-74, § 301(a) 129 Stat.
588 (2015) (amending 47 U.S.C. § 227(b)(1)(A)(iii);
47 C.F.R. § 64.1200(a)(1)(iii)) (hereinafter referred to as
the “debt collection exemption”).
35. In 2016, the FCC exempted from the cell phone
call ban prerecorded and ATDS calls from federal
government officials conducting official business. In re
Rules and Regulations Implementing the Tel. Consumer Prot. Act of 1991 et al., CG Docket No. 02-278,
July 5, 2016 at ¶ 12 (hereinafter referred to as the
“official federal government business exemption 2”).
COUNT I
(The Cell Phone Call Ban is a Content-based
Restriction on Speech)

36. Plaintiffs incorporate by reference the allegations in paragraphs one through 35.
37. The First Amendment reflects a “profound national commitment” to the principle that “debate on
public issues should be uninhibited, robust, and wideopen,” and has “consistently commented on the central
importance of protecting speech on public issues.”
Boos v. Barry, 485 U.S. 312, 318 (1998).
38. “[P]olitical speech is at the very core of the
First Amendment.” Carey v. Fed. Elec. Comm’n.,
791 F. Supp. 2d 121, 133-34 (D.D.C. 2011) (citing BuckThe FCC issued the full text of its Declaratory Ruling, available
at:
http://transition.fcc.gov/Daily_Releases/Daily_Business/2016/
db0706/FCC-16-72A1.pdf.
2

41
ley v. Valeo, 424 U.S. 1, 39 (1976)). “The First Amendment affords the broadest protection to such political
expression in order ‘to assure the unfettered interchange of ideas for the bringing about of political and
social changes desired by people.’ ” McIntyre v. Ohio
Elec. Comm’n., 514 U.S. 334, 346 (1995).
39. The First Amendment to the United States
Constitution prohibits discrimination as to the content
of speech or the identity of the speaker. Reed v. Town
of Gilbert, ___ U.S. ___, 135 S. Ct. 2218, 2227 (2015)
(“Government regulation of speech is content-based if a
law applies to particular speech because of the topic
discussed or the idea or message expressed.”).
40. The debt collection exemption created by Congress and the FCC’s exemptions are based on the content of the speech, which includes the identity of the
speaker. U.S. v. Playboy Entm’t Group, 529 U.S. 803,
812 (2000). Content-based restrictions of protected
speech are subject to strict scrutiny. Cahaly v. Larosa,
796 F.3d 399, 405 (4th Cir. 2015) (“As a content-based
regulation of speech, the anti-robocall statute is subject
to strict scrutiny . . . [u]nder this standard, the government must prove ‘that the restriction furthers a compelling interest and is narrowly tailored to achieve that
interest.’ ”); Riley v. Nat’l Fed. of the Blind, 487 U.S.
781, 800 (1988) (“These more narrowly tailored rules are
in keeping with the First Amendment directive that
government not dictate the content of speech absent
compelling necessity, and then, only by means precisely
tailored.”).
41. The Defendants therefore bear the burden of
demonstrating that the cell phone call ban is narrowly
tailored to further a compelling interest which it is en-

42
titled to protect using the least restrictive means available. Secr’y of the State of Md. v. Joseph H. Munson
Co., 467 U.S. 947, 959-61 (1984); Vill. of Schaumburg v.
Citizens for a Better Env’t., 444 U.S. 620, 636-37 (1980).
The cell phone call ban does not satisfy strict scrutiny.
42. The TCPA restricts Plaintiffs’ fully-protected,
political speech whereas the FCC permits prerecorded
and ATDS calls or text messages to cell phones (or any
service for which the called party is charged) if made
pursuant to the wireless exemption. See 77 Fed. Reg.
at 34235. By favoring commercial speech over Plaintiffs’ political speech, the cell phone call ban violates the
constitutional rights of these political organizations.
See Metromedia, Inc. v. City of San Diego, 453 U.S. 490,
513 (1980).
43. The TCPA restricts Plaintiffs’ fully-protected,
political speech whereas the FCC permits prerecorded
and ATDS calls or text messages to cell phones (or any
service for which the called party is charged) if made
pursuant to the package delivery exemption. See
29 FCC Rcd at 3435. By favoring commercial speech
over the noncommercial political speech of Plaintiffs, the
cell phone call ban violates the constitutional rights of
these political organizations. See Metromedia, 453 U.S.
at 513.
44. The TCPA restricts Plaintiffs’ fully-protected,
political speech whereas the FCC permits prerecorded
and ATDS calls or text messages to cell phones (or any
service for which the called party is charged) if made
pursuant to the intermediary consent exemption. See
29 FCC Rcd at 3444. By favoring this speech over the
noncommercial political speech of Plaintiffs, the cell

43
phone call ban violates the constitutional rights of these
political organizations. See Metromedia, 453 U.S. at 513.
45. The TCPA restricts Plaintiffs’ fully-protected,
political speech whereas the FCC permits prerecorded
and ATDS calls or text messages to cell phones (or any
service for which the called party is charged) if made
pursuant to the HIPAA exemption. See 30 FCC Rcd at
8031. By favoring this speech over the noncommercial
political speech of Plaintiffs, the cell phone call ban
violates the constitutional rights of these political organizations. See Metromedia, 453 U.S. at 513.
46. The TCPA restricts Plaintiffs’ fully-protected,
political speech whereas the FCC permits prerecorded
and ATDS calls or text messages to cell phones (or any
service for which the called party is charged) if made
pursuant to the bank and financial exemption. See
30 FCC Rcd at 8024-28. By favoring commercial
speech over the noncommercial political speech of Plaintiffs, the cell phone call ban violates the constitutional
rights of these political organizations. See Metromedia, 453 U.S. at 513.
47. The TCPA restricts Plaintiffs’ fully-protected,
political speech whereas the TCPA permits prerecorded and ATDS commercial calls or text messages to
cell phones (or any service for which the called party
is charged) if made pursuant to the debt collection
exemption. 47 U.S.C. § 227(b)(1)(A)(iii); 47 C.F.R.
§ 64.1200(a)(1)(iii). By favoring commercial speech over
the noncommercial political speech of Plaintiffs, the cell
phone call ban violates the constitutional rights of these
political organizations. See Metromedia, 453 U.S. at 513.

44
48. The TCPA restricts Plaintiffs’ fully-protected,
political speech whereas the FCC permits prerecorded
and ATDS commercial calls or text messages to cell
phones (or any service for which the called party is
charged) if made pursuant to the official federal government business exemption. In re Rules and Regulations Implementing the Tel. Consumer Prot. Act of
1991 et al., CG Docket No. 02-278, July 5, 2016 at ¶ 12.
By favoring federal government speech over the noncommercial political speech of Plaintiffs, the cell phone
call ban violates the constitutional rights of these political organizations. See Metromedia, 453 U.S. at 513.
49. The official federal government business exemption causes the cell phone call ban to be unconstitutional
for two reasons, first, because it is based on the content
of the speech involved, and second, because it is based
on the identity of the speaker. Playboy, 529 U.S. at 812.
50. The cell phone call ban is therefore an unconstitutional content-based restriction on Plaintiffs’ fullyprotected, political speech in violation of the First
Amendment. Police Dep’t of Chi. v. Mosley, 408 U.S.
92, 95 (1972) (“[A]bove all else, the First Amendment
means that government has no power to restrict expression because of its message, its ideas, its subject
matter, or its content.”).
COUNT II
(The Cell Phone Call Ban is Underinclusive)

51. Plaintiffs incorporate by reference the allegations
in paragraphs one through 50.
52. A law is underinclusive and thus not narrowly
tailored “when it discriminates against some speakers
but not others without a legitimate ‘neutral justification’

45
for doing so.” Nat’l Fed’n of the Blind v. F.T.C.,
420 F.3d 331, 345 (4th Cir. 2005) (“Even when the government has a compelling interest for restricting speech,
it may not seek to further that interest by creating arbitrary distinctions among speakers that bear no ‘reasonable fit’ to the interest at hand.”).
53. An underinclusive statute “raises serious doubts
about whether the government is in fact pursuing the
interest it invokes, rather than disfavoring a particular
speaker or viewpoint.” Brown v. Entm’t Merchs. Ass’n,
564 U.S. 786, 802 (2011) (holding that a California statute that prohibited the sale or rental of “violent video
games” to minors violated the First Amendment because it was underinclusive and did not preclude minors
from having access to violent information in other
forms).
54. The cell phone call ban is underinclusive because
it exempts commercial prerecorded and ATDS calls or
text messages to cell phones (or any service for which
the called party is charged) if made pursuant to the
wireless exemption. See 77 Fed. Reg. at 34235.
55. The cell phone call ban is underinclusive because
it exempts prerecorded and ATDS calls or text messages to cell phones (or any service for which the called
party is charged) if made pursuant to the package delivery exemption. See 29 FCC Rcd at 3435.
56. The cell phone call ban is underinclusive because
it exempts prerecorded and ATDS calls or text messages to cell phones (or any service for which the called
party is charged) if made pursuant to the intermediary
consent exemption. See 29 FCC Rcd at 3444.

46
57. The cell phone call ban is underinclusive because
it exempts prerecorded and ATDS calls or text messages to cell phones (or any service for which the called
party is charged) if made pursuant to the HIPAA exemption. See 30 FCC Rcd at 8031.
58. The cell phone call ban is underinclusive because
it exempts prerecorded and ATDS calls or text messages to cell phones (or any service for which the called
party is charged) if made pursuant to the bank and
financial exemption. Id. at 8024-28.
59. The cell phone call ban is underinclusive because
it exempts commercial prerecorded and ATDS calls or
text messages to cell phones (or any service for which
the called party is charged) if made pursuant to the debt
collection exemption. See 47 U.S.C. § 227(b)(1)(A)(iii);
47 C.F.R. § 64.1200(a)(1)(iii).
60. The cell phone call ban is underinclusive because
it exempts commercial prerecorded and ATDS calls or
text messages to cell phones (or any service for which
the called party is charged) if made pursuant to the
official federal government business exemption. See In
re Rules and Regulations Implementing the Tel. Consumer Prot. Act of 1991 et al., CG Docket No. 02-278,
July 5, 2016 at ¶ 12.
61. There is no relation between any legitimate government purpose behind the cell phone call ban and the
speech banned, regulated, or allowed by it.
62. Plaintiffs’ speech is no more harmful than the
speech allowed by the content-based exemptions to the
cell phone call ban.

47
63. The cell phone call ban is an impermissible means
of advancing any legitimate interest of Defendants.
The cell phone call ban is therefore unconstitutional.
PRAYER FOR RELIEF

WHEREFORE, Plaintiffs respectfully pray for the
following relief and judgment from this Court:
1. A preliminary injunction enjoining the enforcement of the cell phone call ban by Defendants, its agents
and employees against these Plaintiffs, and others similarly situated;
2. A permanent injunction enjoining the enforcement of the cell phone call ban by Defendants, its agents
and employees against these Plaintiffs, and others similarly situated;
3. A declaratory judgment pursuant to Fed. R. Civ.
P. 57 and 28 U.S.C. § 2201 that the cell phone call ban on
its face is unconstitutional as it violates the First Amendment to the United States Constitution;
4. An award of nominal damages in the amount of
$1.00 as a result of Defendants’ violation of Plaintiffs’
constitutional rights;
5. An order requiring that Defendants pay all costs,
interest, and attorneys’ fees as may be incurred with
this civil action as allowed by law; and
6. An order providing such other and further relief
as the Court deems just and proper and for the purpose
of redressing Plaintiffs’ grievances.

48
Dated: Aug. 5, 2016.
Respectfully Submitted,
/s/

CHARLES GEORGE
CHARLES GEORGE, NC #21003
Wyrick Robbins Yates & Ponton LLP
4101 Lake Boone Trail, Suite 300
Raleigh, NC 27607
919-781-4000
919-781-4865 fax
cgeorge@wyrick.com
William E. Raney, MO #46954
(pro hac vice)
Kellie Mitchell Bubeck, MO #65573
(pro hac vice)
Copilevitz & Canter, LLC
310 W. 20th Street, Suite 300
Kansas City, MO 64108
816-472-9000
816-472-5000 fax
braney@cckc-law.com
kmitchell@cckc-law.com
ATTORNEYS FOR PLAINTIFFS

49
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NORTH CAROLINA

Civil Action No. 5:16-cv-00252-D
AMERICAN A SSOCIATION OF POLITICAL CONSULTANTS,
INC.; DEMOCRATIC PARTY OF OREGON, INC.;
PUBLIC POLICY POLLING, LLC; TEA PARTY FORWARD
PAC; AND WASHINGTON STATE DEMOCRATIC CENTRAL
COMMITTEE, PLAINTIFFS
v.
LORETTA LYNCH, IN HER OFFICIAL CAPACITY
AS ATTORNEY GENERAL OF THE UNITED STATES, AND
FEDERAL COMMUNICATIONS COMMISSION,
A FEDERAL AGENCY, DEFENDANTS
[Filed: Aug. 3, 2016]
DECLARATION OF ALANA JOYCE IN SUPPORT
OF STANDING BY AMERICAN ASSOCIATION
OF POLITICAL CONSULTANTS

COMES NOW Alana Joyce, being duly sworn, and
states as follows:
1. My name is Alana Joyce. I am over the age of
18, am authorized to make this affidavit on behalf of
American Association of Political Consultants, Inc.
(“AAPC”), and am otherwise competent to make this
affidavit.
2. I make this affidavit based on my own personal
knowledge.

50
3. I have been the Executive Director of AAPC
since 2011.
4. In my role as Executive Director, I oversee all
AAPC general management, membership growth and
retention, industry advocacy, and annual conference
functions including the recognition of excellence in
political consulting practices.
5. AAPC is incorporated in the District of Columbia
with its principal office in McLean, Virginia.
6. AAPC is organized as a tax-exempt nonprofit organization under § 501(c)6) of the Internal Revenue Code.
7. AAPC is the largest bipartisan association of political and public affairs professionals in the world.
8. AAPC provides education for its members and
advocates for the protection of political free speech.
9. AAPC members include individuals and businesses that handle all aspects of campaigning including
political fundraisers, political organizers, persons who
conduct and analyze political polls, i.e. political pollsters
and opinion researchers, and persons who organize get
out the vote (GOTV) efforts
10. But for the Telephone Consumer Protection Act
(“TCPA”), AAPC members would make calls to registered voters’ cell phones using an automatic telephone
dialing system (“ATDS”) or prerecorded voice as these
technologies allow a more cost-efficient way to communicate with registered voters than live voice or “manually
dialed” telephone calls. Our members’ contacts to voters
and constituents would be much more cost-effective if
we could use prerecorded voice or ATDS calling equipment without threat of TCPA litigation. In addition, as

51
many consumers increasingly choose to have cell phone
only access (in lieu of landlines), our members are
increasingly reliant on outreach by cell phone for information gathering, e.g. polling, solicitation of donations, “get out the vote” or for other political purposes.
11. In the past, AAPC members have considered
making calls to cell phones with a predictive dialer, i.e.
equipment which has the capacity to dial numbers
without human intervention for each call, or prerecorded voice calls for get out the vote, polling, or solicitation of donations. AAPC members have not used
prerecorded voice, predictive dialers, or other ATDS
equipment to make calls to cell phones for which we do
not have express consent for fear of prosecution and/or
private actions under the TCPA for massive damages
which would exceed their ability to pay.
12. While some of AAPC members’ calls to cell phones
are made to persons who have provided prior express
consent (and have not revoked that consent), they would
also like to make prerecorded voice, predictively dialed,
and other ATDS calls to persons’ cell phones who had a
relationship with them in the past but whose number
has changed, persons who do not have a relationship
with them but might support their causes, and to persons who do not have a relationship with them for information gathering, e.g. polling, solicitation of donations, “get out the vote” or for other political purposes.

52
13. The interest of AAPC members in making calls
to registered voters’ cell phones using a prerecorded
voice, predictive dialers, or other ATDS equipment is
connected to AAPC’s organizational purpose, which, in
large part, is to defend political free speech and provide
education and resources regarding same to its members.
14. AAPC, therefore has suffered an injury in fact
and has organizational standing to bring suit on behalf
of its members in the above-entitled action.
[Signatures on the following page.]

53
FURTHER AFFIANT SAYETH NOT.
STATE OF VIRGINIA
COUNTY OF FAIRFAX
Dated at

, this [3rd] day of [Aug.], 2016.
/s/

ALANA M. JOYCE
ALANA JOYCE

Sworn to, subscribed and acknowledged in my presence
this [3rd] day of [Aug.], 2016, by [Alana Joyce].
/s/

My Commission Expires:

CARYN L. STILWELL
CARYN L. STILWELL
Notary Public
[Jan. 5, 2019]

54
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NORTH CAROLINA

Civil Action No. 5:16-cv-00252-D
AMERICAN A SSOCIATION OF POLITICAL CONSULTANTS,
INC.; DEMOCRATIC PARTY OF OREGON, INC.;
PUBLIC POLICY POLLING, LLC; TEA PARTY FORWARD
PAC; AND WASHINGTON STATE DEMOCRATIC CENTRAL
COMMITTEE, PLAINTIFFS
v.
LORETTA LYNCH, IN HER OFFICIAL CAPACITY
AS ATTORNEY GENERAL OF THE UNITED STATES, AND
FEDERAL COMMUNICATIONS COMMISSION,
A FEDERAL AGENCY, DEFENDANTS
[Filed: Aug. 4, 2016]
DECLARATION OF BRAD MARTIN IN SUPPORT
OF STANDING BY DEMOCRATIC PARTY OF OREGON

COMES NOW Brad Martin, being duly sworn, and
states as follows:
1. My name is Brad Martin. I am over the age of
18, am authorized to make this affidavit on behalf of the
Democratic Party of Oregon (“DPO”), and am otherwise
competent to make this affidavit.
2. I make this affidavit based on my own personal
knowledge.
3. I have been Executive Director of DPO since 2013.

55
4. In my role as Executive Director, I am responsible for managing DPO’s internal operations, fundraising, running “get-out-the-vote” campaigns, and
recruiting and electing Democrats among other duties.
5. DPO is located at 232 NE 9th Avenue, Portland,
Oregon 97232.
6. DPO is organized as a tax-exempt nonprofit organization under § 527 of the Internal Revenue Code.
7. DPO works to promote the interests of the Democratic Party in the State of Oregon including coordinating,
organizing and electing Democratic candidates, adopting a party platform, ensuring the party’s issues are
enacted into law, and representing DPO to the Democratic National Committee and to other states.
8. But for the Telephone Consumer Protection Ac
(“TCPA”), DPO would make calls to registered voters’
cell phones using an automatic telephone dialing system
(“ATDS”) or prerecorded voice as these technologies
allow a more cost-efficient way to communicate with
registered voters than live voice or “manually dialed”
telephone calls.
9. In the past, DPO has considered making calls to
cell phones with a predictive dialer, i.e. equipment
which has the capacity to dial numbers without human
intervention for each call, or prerecorded voice calls for
get out the vote, polling, or solicitation of donations.
We have not used prerecorded voice, predictive dialers,
or other ATDS equipment to make calls to cell phones
for which we do not have express consent for fear of
prosecution and/or private actions under TCPA for
massive damages which would exceed our ability to pay.

56
10. While some of our calls to cell phones are made to
persons who have provided prior express consent (and
have not revoked that consent), we would also like to
make prerecorded voice, predictively dialed, and other
ATDS calls to persons’ cell phones who had a relationship with us in the past but whose number has changed,
persons who do not have a relationship with us but
might support our causes, and to persons who do not
have a relationship with us for information gathering,
e.g. polling, solicitation of donations, “get out the vote”
or for other political purposes.
11. DPO, therefore, has a personal stake in the outcome of the action, has suffered an injury in fact, and
has standing to bring suit in the above-entitled action.
[Signatures on the following page.]

57
FURTHER AFFIANT SAYETH NOT.
STATE OF OREGON
COUNTY OF MULTNOMAH
Dated at [Bank of America], this [4] day of [Aug.], 2016.
/s/

BRAD MARTIN
BRAD MARTIN

Sworn to, subscribed and acknowledged in my presence
this [4] day of [Aug.], 2016, by [Bradly B. Martin].
/s/

My Commission Expires:

MANDY LYNN SCOTT
MANDY LYNN SCOTT
Notary Public
[Apr. 6, 2018]

58
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NORTH CAROLINA

Civil Action No. 5:16-cv-00252-D
AMERICAN A SSOCIATION OF POLITICAL CONSULTANTS,
INC.; DEMOCRATIC PARTY OF OREGON, INC.;
PUBLIC POLICY POLLING, LLC; TEA PARTY FORWARD
PAC; AND WASHINGTON STATE DEMOCRATIC CENTRAL
COMMITTEE, PLAINTIFFS
v.
LORETTA LYNCH, IN HER OFFICIAL CAPACITY
AS ATTORNEY GENERAL OF THE UNITED STATES, AND
FEDERAL COMMUNICATIONS COMMISSION,
A FEDERAL AGENCY, DEFENDANTS
[Filed: Aug. 4, 2016]
DECLARATION OF DEAN DEBNAM IN SUPPORT
OF STANDING BY PUBLIC POLICY POLLING

COMES NOW Dean Debnam, being duly sworn, and
states as follows:
1. My name is Dean Debnam. I am over the age of
18, am authorized to make this affidavit on behalf of
Public Policy Polling, LLC (“PPP”), and am otherwise
competent to make this affidavit.
2. I make this affidavit based on my own personal
knowledge.
3. I have been President and CEO of PPP since 2001.

59
4. PPP is a limited liability company located at 2912
Highwoods Blvd., Suite 201, Raleigh, North Carolina
27604.
5. In my role as President and CEO, I oversee all
PPP general management, including polling and research for national political clients ranging from United
States Senate campaigns to major progressive advocacy
organizations.
6. PPP measures and tracks public opinion on candidates, campaigns, and other political issues with automated telephone surveys.
7. But for the Telephone Consumer Protection Act
(“TCPA”), PPP would make calls to registered voters’
cell phones using an automatic telephone dialing system
(“ATDS”) or prerecorded voice as these technologies
allow a more cost-efficient way to communicate with
registered voters than live voices or “manually dialed”
telephone calls.
8. In the past, PPP has considered making calls to
cell phones with a predictive dialer, i.e. equipment
which has the capacity to dial numbers without human
intervention for each call, or prerecorded voice calls for
public opinion polling. We have not used prerecorded
voice, predictive dialers, or other ATDS equipment to
make calls to cell phones for which we do not have
express consent for fear of prosecution and/or private
actions under the TCPA for massive damages which
would exceed our ability to pay.
9. While some of our calls to cell phones are made to
persons who have provided prior express consent (and
have not revoked that consent), we would also like to
make prerecorded voice, predictively dialed, and other

60
ATDS calls to persons’ cell phones who had a relationship with us in the past but whose number has chanted,
persons who do not have a relationship with us but
might be able to provide responses to opinion polls or
for other political purposes.
10. PPP, therefore, has a personal stake in the outcome of the action, has suffered an injury in fact, and
has standing to bring suit in the above-entitled action.
[Signatures on the following page.]

61
FURTHER AFFIANT SAYETH NOT.
STATE OF NORTH CAROLINA
COUNTY OF WAKE
Dated at [Raleigh NC], this [4th] day of [Aug.], 2016.
/s/

DEAN DEBNAM
DEAN DEBNAM

Sworn to, subscribed and acknowledged in my presence
this
day of
, 2016, by
.
Notary Public
My Commission Expires:

62
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NORTH CAROLINA

Civil Action No. 5:16-cv-00252-D
AMERICAN A SSOCIATION OF POLITICAL CONSULTANTS,
INC.; DEMOCRATIC PARTY OF OREGON, INC.;
PUBLIC POLICY POLLING, LLC; TEA PARTY FORWARD
PAC; AND WASHINGTON STATE DEMOCRATIC CENTRAL
COMMITTEE, PLAINTIFFS
v.
LORETTA LYNCH, IN HER OFFICIAL CAPACITY
AS ATTORNEY GENERAL OF THE UNITED STATES, AND
FEDERAL COMMUNICATIONS COMMISSION,
A FEDERAL AGENCY, DEFENDANTS
[Filed: Aug. 5, 2016]
DECLARATION OF NIGER INNIS IN SUPPORT
OF STANDING BY TEA PARTY FORWARD PAC

COMES NOW Niger Innis, being duly sworn, and
states as follows:
1. My name is Niger Innis. I am over the age of
18, am authorized to make this affidavit on behalf of the
Tea Party Forward PAC (“TPF”), and am otherwise
competent to make this affidavit.
2. I make this affidavit based on my own personal
knowledge.
3. I have been the Chairman of TPF since 2015.

63
4. In my role as Chairman, I am responsible for the
customary oversight of activities, approval of plans and
program, and I am the acting spokesperson in media
and other internal and external communications.
5. TPF is located at 211 N. Union St., Suite 100,
Alexandria, Virginia 22314.
6. TPF is organized as a tax-exempt nonprofit organization under § 527 of the Internal Revenue Code.
7. TPF works to promote the interests of the Tea
Party including reforming all political parties and government to advance the core principles of the Founding
Fathers, recruiting Americans who share that same
vision, and encouraging grassroots operations to vote
and elect candidates who represent these ideals.
8. But for the Telephone Consumer Protection Act
(“TCPA”), TPF would make calls to registered voters’
cell phones using an automatic telephone dialing system
(“ATDS”) or prerecorded voice as these technologies
allow a more cost-efficient way to communicate with
registered voters than live voice or “manually dialed”
telephone calls.
9. In the past, TPF has considered making calls to
cell phones with a predictive dialer, i.e. equipment
which has the capacity to dial numbers without human
intervention for each call, or prerecorded voice calls to
obtain support, educate voters, or solicit donations.
We have not used prerecorded voice, predictive dialers,
or other ATDS equipment to make calls to cell phones
for which we do not have express consent for fear of
prosecution and/or private actions under the TCPA for
massive damages which would exceed our ability to pay.

64
10. While some of our calls to cell phones are made to
persons who have provided prior express consent (and
have not revoked that consent), we would also like to
make prerecorded voice, predictively dialed, and other
ATDS calls to persons’ cell phones who had a relationship with us in the past but whose number has changed,
persons who do not have a relationship with us but
might support our causes, and to persons who do not
have a relationship with us for solicitation of donations,
education or for other political purposes.
11. TPF, therefore, has a personal stake in the outcome of the action, has suffered an injury in fact, and
has standing to bring suit in the above-entitled action.
[Signatures on the following page.]

65
FURTHER AFFIANT SAYETH NOT.
STATE OF VIRGINIA
COUNTY OF FAIRFAX
Dated at Alexandria, VA , this 5th day of Aug. ,
2016.
/s/

NIGER INNIS
NIGER INNIS

Sworn to, subscribed and acknowledged in my presence
this
day of
, 2016, by
.
Notary Public
My Commission Expires:

66
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NORTH CAROLINA

Civil Action No. 5:16-cv-00252-D
AMERICAN A SSOCIATION OF POLITICAL CONSULTANTS,
INC.; DEMOCRATIC PARTY OF OREGON, INC.;
PUBLIC POLICY POLLING, LLC; TEA PARTY FORWARD
PAC; AND WASHINGTON STATE DEMOCRATIC CENTRAL
COMMITTEE, PLAINTIFFS
v.
LORETTA LYNCH, IN HER OFFICIAL CAPACITY
AS ATTORNEY GENERAL OF THE UNITED STATES, AND
FEDERAL COMMUNICATIONS COMMISSION,
A FEDERAL AGENCY, DEFENDANTS
[Filed: Aug. 2, 2016]
DECLARATION OF KAREN DEAL IN SUPPORT
OF STANDING BY WASHINGTON STATE
DEMOCRATIC CENTRAL COMMITTEE

COMES NOW Karen Deal, being duly sworn, and
states as follows:
1. My name is Karen Deal. I am over the age of 18,
am authorized to make this affidavit on behalf of Washington State Democratic Central Committee (“WSDCC”),
and am otherwise competent to make this affidavit.
2. I make this affidavit based on my own personal
knowledge.
3. I have been the Executive Director of WSDCC
since 2014.

67
4. In my role as Executive Director, my duties include, but are not limited to, directing our political
program, staff management, and internal and external
outreach.
5. WSDCC is located at 615 2nd Avenue Suite 580,
Seattle, Washington 98104.
6. WSDCC is organized as a tax-exempt nonprofit
organization under § 527 of the Internal Revenue Code.
7. WSDCC works to elect Democrats, uphold Democratic values, and support Democrats across the state.
WSDCC members include elected officials, candidates
for office, activists, and voters.
8. But for the Telephone Consumer Protection Act
(“TCPA”), WSDCC would make calls to registered voters’
cell phones using an automatic telephone dialing system
(“ATDS”) or prerecorded voice as these technologies
allow a more cost-efficient way to communicate with
registered voters than live voice or “manually dialed”
telephone calls.
9. In the past, WSDCC has considered making calls
to cell phones with a predictive dialer, i.e. equipment
which has the capacity to dial numbers without human
intervention for each call, or prerecorded voice calls for
get out the vote, polling, or solicitation of donations.
We have not used prerecorded voice calls, predictive
dialers, or other ATDS equipment to make calls to cell
phones for which we do not have express consent for
fear of prosecution and/or private actions under the
TCPA for massive damages which would exceed our
ability to pay.

68
10. While some of our calls to cell phones are made to
persons who have provided prior express consent (and
have not revoked that consent), we would also like to
make prerecorded voice, predictively dialed, and other
ATDS calls to persons’ cell phones who had a relationship with us in the past but whose number has changed,
persons who do not have a relationship with us but
might support our causes, and to persons who do not
have a relationship with us for information gathering,
e.g. polling, solicitation of donations, “get out the vote”
or for other political purposes.
11. WSDCC, therefore, has a personal stake in the
outcome of the action, has suffered an injury in fact, and
has standing to bring suit in the above-entitled action.
[Signatures on the following page.]

69
FURTHER AFFIANT SAYETH NOT.
STATE OF WASHINGTON
COUNTY OF KING
Dated at [12:10 PM], this [2] day of [Aug.], 2016.
/s/

KAREN DEAL
KAREN DEAL

Sworn to, subscribed and acknowledged in my presence
this [2nd] day of [Aug.], 2016, by [Karen Deal].
/s/

My Commission Expires:

NICHOLAS BROOKS
NICHOLAS BROOKS
Notary Public
[08/13/2018]

70
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NORTH CAROLINA
WESTERN DIVISION

Civil Action No. 5:16-cv-00252 (JCD)
AMERICAN A SSOCIATION OF POLITICAL CONSULTANTS,
INC.; DEMOCRATIC PARTY OF OREGON, INC.;
PUBLIC POLICY POLLING, LLC; TEA PARTY FORWARD
PAC; AND WASHINGTON STATE DEMOCRATIC CENTRAL
COMMITTEE, PLAINTIFFS
v.
LORETTA LYNCH, IN HER OFFICIAL CAPACITY
AS ATTORNEY GENERAL OF THE UNITED STATES AND
FEDERAL COMMUNICATIONS COMMISSION,
A FEDERAL AGENCY, DEFENDANTS
Filed: Sept. 23, 2016
PLAINTIFFS’ RESPONSE TO DEFENDANTS’ MOTION
TO DISMISS FIRST AMENDED COMPLAINT

* * * * *
I.

SUMMARY OF THE CASE

On May 12, 2016, Plaintiffs filed this lawsuit against
Defendant Loretta Lynch, in her official capacity as
Attorney General of the United States, for declaratory
judgment as well as preliminary and permanent injunctions to restrain Defendant from acting under color
of law to deprive Plaintiffs of rights secured to them by
the First Amendment to the U.S. Constitution. See
Doc. 1, ¶¶ 1-2. Specifically, Plaintiffs allege that the

71
cell phone call ban is an unconstitutional violation of
their First Amendment rights because it is content
based and cannot withstand strict scrutiny. Id.
On July 15, 2016, Defendant Lynch filed her Motion to
Dismiss Plaintiffs’ Complaint for lack of subject-matter
jurisdiction. See Doc. 15 and 16. Plaintiffs subsequently filed their First Amended Complaint on August
5, 2016, and added the FCC as a Defendant. See Doc.
18. In the First Amended Complaint, Plaintiffs alleged
that 47 U.S.C. § 227(b)(1)(A)(iii) (hereinafter the “cell
phone call ban”) of the Telephone Consumer Protection
Act (“TCPA”) violates the First Amendment because it
is a content-based restriction of Plaintiffs’ fully-protected
political speech and cannot withstand strict scrutiny.
Doc. 18, ¶ 2. This case is a challenge to the cell phone
call ban, only, based on the litany of content-based
exemptions to it created by Congress and the FCC.
Plaintiffs are not challenging the entirety of the TCPA,
nor are they challenging those exemptions. Id. at ¶ 4.
Plaintiffs have further alleged that the fact that Congress and the FCC continue to create content-based
exemptions to the cell phone call ban supports Plaintiffs’ argument that it is unconstitutional. The history
of the FCC and Congress’ ability and intent to continue
to create content-based exemptions to the cell phone
call ban demonstrates that it is unconstitutional. Id. at
¶ 3.
Defendants’ Motion to Dismiss First Amended Complaint (Doc. 22) and Memorandum in Support of Defendants’ Motion to Dismiss (Doc. 23) were filed on August
26, 2016. In their Memorandum, Defendants argue that
1) the district court lacks jurisdiction to consider Plaintiffs’ suit because it is actually a challenge to FCC orders

72
creating the content-based exemptions; and 2) Plaintiffs
lack standing because the remedy for a challenge to
regulatory exemptions, i.e. striking those exemptions,
would not redress their alleged injury. See Doc. 22.
As shown herein, Plaintiffs contend that both of these
arguments mischaracterize Plaintiffs’ case and neither
has merit. See infra and Doc. 18.
II.

STATEMENT OF FACTS

Plaintiffs are various political organizations and a
bipartisan, nonprofit association of political professionals that make calls to registered voters on their cell
phones to discuss political and governmental issues and
to solicit political donations, and would make these calls
to persons who did not provide prior express consent to
them using an automatic telephone dialing system
(“ATDS”), artificial or prerecorded voice but for the cell
phone call ban and the potential for prosecution by the
federal government, states, or private persons or classes of persons. Doc. 18, ¶¶ 8-12. As set forth above,
Plaintiffs in their First Amended Complaint allege that
the cell phone call ban of the TCPA violates the First
Amendment because it is a content-based restriction of
Plaintiffs’ fully-protected political speech and cannot
withstand strict scrutiny. Id. at ¶ 2. They challenge
the cell phone call ban, only, based on the litany of
content-based exemptions to it created by Congress and
the FCC, and are not challenging the entirety of the
TCPA, nor are they challenging those exemptions. Id.
at ¶ 4. Plaintiffs have also alleged that the history and
continuous creation by Congress and the FCC of contentbased exemptions to the cell phone call ban supports
Plaintiffs’ argument that it is unconstitutional. Id. at ¶ 3.

73
Since 1992, the FCC and Congress have passed numerous exemptions to the cell phone call ban which apply based on the identity of the caller and/or the content
of the exempted calls. Id. at ¶¶ 28-35. The wireless
exemption, package delivery exemption, intermediary
consent exemption, HIPAA exemption, bank and financial exemption, debt collection exemption and official federal government business exemption as referenced in the First Amended Complaint each favor commercial speech over the noncommercial political speech
of Plaintiffs, and thus violate the constitutional rights of
these political organizations. See id. at ¶¶ 28-50. As a
result, and for the reasons more particularly alleged in
the First Amended Complaint, Plaintiffs have alleged
that the cell phone call ban is an impermissible contentbased restriction on free speech and is underinclusive.
Id. at ¶¶ 36-63. Plaintiffs seek, among other things, a
preliminary and permanent injunction enjoining the
enforcement of the cell phone call ban by Defendants,
its agents and employees against these Plaintiffs, and
others similarly situated, and a declaratory judgment
pursuant to Fed. R. Civ. P. 57 and 28 U.S.C. § 2201 that
the cell phone call ban on its face is unconstitutional as
it violates the First Amendment to the U.S. Constitution. Id. at Prayer ¶¶ 1-3.
Defendants have filed a motion to dismiss and supporting memorandum arguing that 1) the district court
lacks jurisdiction to consider Plaintiffs’ suit because it is
actually a challenge to FCC orders creating the contentbased exemptions; and 2) Plaintiffs lack standing because the remedy for a challenge to regulatory exemptions, i.e. striking those exemptions, would not redress
their alleged injury. See Doc. 22. As shown herein,
Plaintiffs contend that both of these arguments mis-

74
characterize Plaintiffs’ case and neither has merit. See
infra and Doc. 18.
III. ARGUMENT
A.

The cell phone call ban violates the First
Amendment.

The cell phone call ban is contrary to the protections
afforded to political speech by the First Amendment.
“[S]peech on ‘matters of public concern’ . . . is ‘at the
heart of the First Amendment’s protection.’ ” Dun &
Bradstreet v. Greenmoss Builders, Inc., 472 U.S. 749,
758-59 (1985) (opinion of Powell, J.) (quoting First Nat.
Bank of Boston v. Bellotti, 435 U.S. 765, 776 (1978). The
First Amendment reflects “a profound national commitment to the principle that debate on public issues should
be uninhibited, robust, and wide-open.” New York
Times Co. v. Sullivan, 376 U.S. 254, 270 (1964). This is
because “speech concerning public affairs is more than
self-expression; it is the essence of self-government.”
Garrison v. Louisiana, 379 U.S. 64, 74-75 (1964). Consequently, “speech on public issues occupies the highest
rung of the hierarchy of First Amendment values, and
is entitled to special protection.” Connick v. Myers,
461 U.S. 138, 145 (1983) (internal quotation marks omitted).
Nor would striking the regulatory and statutory
exemptions properly redress Plaintiffs’ injury as the
FCC and Congress are empowered to create new exemptions. See City of Ladue v. Gilleo, 512 U.S. 43, 51
(1994) (the Supreme Court struck down ordinance that
prohibited residences from erecting certain signs but
exempted commercial entities, churches, and nonprofit
organizations as a content-based restriction on speech

75
that violated the First Amendment). The Court noted
that “[e]xemptions from an otherwise legitimate regulation of a medium of speech may be noteworthy for a
reason quite apart from the risks of viewpoint and content
discrimination: They may diminish the credibility of the
government’s rationale for restricting speech in the first
place.” Id. at 52. See also Carey v. Brown, 447 U.S.
455, 459-71 (1980) (the Supreme Court struck down
state law that forbade certain kinds of picketing but
exempted labor picketing as it discriminated between
lawful and unlawful conduct based upon the content of
the communication. Notably, the Court struck the statute, not the exemption to the statute, as unconstitutional).
Permitting more speech, rather than less, is preferable
as part of the marketplace of ideas where freedom of
expression encourages the competition of ideas. See
Abrams v. U.S., 250 U.S. 616, 630 (1919) (Holmes, O.,
dissenting) (“the ultimate good desired is better reached
by free trade in ideas—that the best test of truth is the
power of the thought to get itself accepted in the competition of the market, and that truth is the only ground
upon which their wishes safely can be carried out.”);
U.S. v. Rumely, 345 U.S. 41, 56 (1953) (“Like the publishers of newspapers, magazines, or books, this publisher bids for the minds of men in the market place of
ideas.”); Brandenburg v. Ohio, 395 U.S. 444 (1969).
B.

Plaintiffs challenge the cell phone call ban, a
provision of the TCPA.

Defendants’ Memorandum rests on the argument
that the district court lacks jurisdiction, characterizing
Plaintiffs’ challenge not as a challenge to a provision of
the TCPA, but to the regulatory exemptions created by

76
FCC orders.2 That characterization is false: Plaintiffs’
lawsuit challenges a provision of the TCPA:
the ban on certain calls to cell phones in the Telephone Consumer Protection Act (“TCPA”), 47 U.S.C.
§ 227(b)(1)(A)(iii) (hereinafter the “cell phone call
ban”), is an unconstitutional violation of their First
Amendment rights because it is content-based and
cannot withstand strict scrutiny.
Doc. 18, ¶ 2.
Plaintiffs reiterate throughout their First Amended
Complaint that “[t]his lawsuit is a challenge to a federal
statute” and it is “not a challenge to FCC orders or
regulations promulgated under that statute.” Id. at
¶ 4. Based on an apparent recognition of this fact,
alternatively, Defendants contend that “[a]lthough Plaintiffs’ primary purpose in citing to FCC orders in their
Complaint may be to argue that the TCPA writ large is
unconstitutional, the fact that those orders form the
basis for their constitutional argument is sufficient to
invoke the jurisdiction of the court of appeals.” Doc.
23, p. 5. Defendants do not cite any law for this proposition, nor could they. Moreover, Plaintiffs are not
challenging the TCPA as a whole, but the cell phone call
ban. See Doc. 18, ¶ 2. Nevertheless, elsewhere in their
Memorandum, Defendants contend that “Plaintiffs make
no argument that the statute itself is otherwise unconstitutional” so the “ ‘practical effect’ of a ruling in PlainSee Doc. 23, p. 4, n.2. To be clear, Plaintiffs do not dispute that
the court of appeals has exclusive jurisdiction to determine the
validity of all final orders of the FCC. See 47 U.S.C. § 402(a);
28 U.S.C. § 2342(1), but deny that they are challenging any FCC
orders, and thus deny that this suit invokes the Hobbs Act.
2

77
tiffs’ favor would be to invalidate the FCC orders alone”
and the district court would therefore lack jurisdiction.
Doc. 23, p. 6. This statement contradicts not only Plaintiffs’ First Amended Complaint, but Defendants’ argument cited above and its further admission in their
Memorandum that “[Plaintiffs] are left with their argument that the statute is unconstitutional because the
2015 amendment, exempting calls made to collect debts
owed to or guaranteed by the Federal Government,
renders it content-based.” Id. at p. 7.
Plaintiffs have, in fact, argued that the cell phone call
ban is an unconstitutional restriction, applicable or not
based on the identity of the speaker and the content of
the speech. The cell phone call ban restricts Plaintiffs’
fully-protected political speech while it otherwise permits certain types of commercial speech. See Doc. 18,
¶¶ 36-50.
Plaintiffs also argue that the cell phone call ban is
unconstitutional as an underinclusive statute because it
discriminates against some speakers [Plaintiffs] but not
others without a legitimate ‘neutral justification’ for
doing so.” Nat’l Fed’n of the Blind v. F.T.C., 420 F.3d
331, 345 (4th Cir. 2005) (“Even when the government
has a compelling interest for restricting speech, it may
not seek to further that interest by creating arbitrary
distinctions among speakers that bear no ‘reasonable
fit’ to the interest at hand.”). Id.

78
The FCC believes it has the power to make contentbased exemptions to the cell phone call ban.3 Congress
also believes it has the same ability and if a statutory
content-based exemption was struck down, Congress
could simply pass a new law recreating it. The fact that
Congress and the FCC continue to create content-based
exemptions to the cell phone call ban, including the 2015
amendment to the TCPA that exempts calls “made
solely to collect a debt owed to or guaranteed by the
United States”4 , leads to the conclusion that the cell
phone call ban is unconstitutional.
Defendants’ reliance on Mais v. Gulf Coast Collection Bureau, Inc., 768 F.3d 1110, 1119 (11th Cir. 2014) is
inapposite. The plaintiff in Mais filed a claim in federal
district court against a medical provider and its debt
collection agent for making prerecorded or ATDS calls
to his cell phone without prior express consent in violation of the TCPA. Id. at 1113. The defendant argued
that the calls fell within a statutory exception for “prior
express consent,” as interpreted in a 2008 declaratory
ruling from the FCC. Id. Because the plaintiff ’s claim
fell “squarely within the scope of the FCC order, which
covers medical debts” and the district court held that
the “FCC’s interpretation was inconsistent with the
language of the TCPA, the Mais court appropriately
held that the district court had no authority to consider
the validity of the 2008 FCC ruling. Id.
The TCPA has given the FCC the authority to “prescribe regulations to implement the requirements of this subsection. . . .”
47 U.S.C. § 227(b)(2).
4
TCPA, Pub. L. No. 114-74, § 301(a) 129 Stat. 588 (2015) (amending 47 U.S.C. § 227(b)(1)(A)(iii); 47 C.F.R. § 64.1200(a)(1)(iii))
(hereinafter referred to as the “debt collection exemption”).
3

79
In this case, there is no request by Plaintiffs to have
this Court consider any of the FCC rulings referenced
in Plaintiffs’ First Amended Complaint, and a review of
those rulings makes clear that they are completely
unrelated to the calls at issue in this case, and Plaintiffs
would have no standing before the FCC to challenge
any of those rulings. See Doc. 18, ¶¶ 29-34. The Mais
court did discuss the “practical effect” that a case would
have on an FCC ruling, 768 F.3d at 1120, and thus Defendants here expressly argue that the “ ‘practical effect’ of a ruling in Plaintiffs’ favor would be to invalidate
the FCC orders alone, as Plaintiffs make no argument
that the statute itself is unconstitutional.” Doc. 23, p. 6.
As Plaintiffs are arguing that a provision of the TCPA
itself—the cell phone call ban—is unconstitutional, Defendants argument necessarily fails. Without directly
stating it, Defendants want the Court to find that the
Hobbs Act, 28 U.S.C. § 2342, is applicable in any challenge of a statute, if the statute has been interpreted by
the FCC at some point, because the constitutional challenge would necessarily make rulings interpreting the
statute of no force and effect. Neither the Mais case
nor any other case cited by Defendants support this position, and it is undisputed that this Court has jurisdiction generally to assess the constitutionality of a statute
or a provision thereof. See 28 U.S.C. § 1331 (“The district courts shall have original jurisdiction of all civil
actions arising under the Constitution, laws, or treaties
of the United States”).
The decision and rationale of U.S. v. Any & All Radio Station Transmission Equip., 207 F.3d 458, 460
(8th Cir. 2000), a case cited by Defendants, demonstrates
why Defendants’ reliance on the Hobbs Act is erroneous. In that case, the government brought an in rem

80
forfeiture action to seize radio equipment used by the
plaintiff, an individual “microbroadcaster” who operated a
radio station without a FCC license. In defending
against the claim, the plaintiff asserted affirmative defenses including that FCC regulations barring new licenses to microbroadcasters violated the First Amendment and the Communications Act of 1934. Id. As
noted specifically by the Court, the plaintiff “did not
challenge the constitutionality of the Communications
Act itself.” Id. As Defendants do here, the government relied on the Hobbs Act and the Federal Communications Act, 47 U.S.C. § 402(a), but unlike that plaintiff, Plaintiffs here are in fact challenging the constitutionality of a provision of the statute, and are not challenging any order or ruling of the FCC. The Any & All
Radio Station Transmission Equip. court summarized
the statutory scheme of the above two statutes, stating:
The statute provides: “Any proceeding to enjoin,
set aside, annul, or suspend any order of the Commission . . . shall be brought as provided by and
in the manner prescribed in chapter 158 of Title 28.”
47 U.S.C. § 402(a). The cross-referenced statute
states: “The court of appeals . . . has exclusive
jurisdiction to enjoin, set aside, suspend (in whole or
in part), or to determine the validity of (1) all final
orders of the Federal Communications Commission
made reviewable by section 402(a) of title 47.”
28 U.S.C. § 2342.
207 F.3d at 463. In analyzing the statutory scheme,
however, the Court noted:
The statutory scheme makes sense (1) to ensure review based on an administrative record made before
the agency charged with implementation of the

81
statute; (2) to ensure uniformity of decision making
because of uniform fact finding made by the agency;
(3) to bring to bear the agency’s expertise in engineering and other technical questions. If Fried had
no way of obtaining judicial review of the regulations
his case might be different. See Thunder Basin
Coal Co. v. Reich, 510 U.S. 200, 212-13 (1994). But
he could have obtained review by applying for a license and asking for a waiver of the regulations; rejection of his request would have permitted appeal to
the circuit.
Id. In this case, however, there is nothing for Plaintiffs to put before the FCC in the way of an administrative record, there is no fact finding for an agency to
make as the relief sought here has nothing to do with
decisions made by the agency, and the FCC has no
expertise and there are no technical questions for the
FCC to consider, and thus the factors supporting the
statutory scheme do not exist. More directly, the
purpose of this proceeding is not “to enjoin, set aside,
annul or suspend any order of the Commission” and
thus jurisdiction does not lie in the court of appeals.
See 47 U.S.C. § 402(a); 28 U.S.C. § 2342. Moreover,
unlike the option that the Court said was available to
the plaintiff in Any & All Radio Station Transmission
Equip., Plaintiffs do not have the option of addressing
the exemptions with the FCC as referenced in the First
Amended Complaint.
Fitzhenry v. Indep. Order of Foresters, No. 2:14-CV3690, 2015 U.S. Dist. LEXIS 76750, *6-7 (D.S.C. June
15, 2015), relied upon by Defendants, also supports
Plaintiffs’ argument that referencing an FCC order
does not invoke the jurisdiction of the court of appeals

82
under the Hobbs Act. In Fitzhenry, the plaintiff argued that “the FCC has been clear that if a tax exempt
nonprofit is engaging in commercial pre-recorded telemarketing, it can be held liable.” Id. at *6. While the
defendant contested that interpretation, the district
court noted that:
Fitzhenry does not argue that the court should invalidate the nonprofit exemption. Such an argument
would raise serious issues under the Hobbs Act, which
grants the courts of appeals the “exclusive jurisdiction to enjoin, set aside, suspend (in whole or in part),
or to determine the validity of . . . all final orders
of the [FCC]”. 28 U.S.C. § 2342(1); 47 U.S.C. § 402.
Id. at n.3. Similar to the reasoning in Fitzhenry, if
Plaintiffs had argued to invalidate final orders of the
FCC, the jurisdiction of the court of appeals would be
invoked. Plaintiffs, however, have not brought this
proceeding to invalidate any FCC final order.
The other cases Defendants cite in support of their
argument are also distinguishable. See Self v. Bellsouth
Mobility, Inc., 700 F.3d 453, 461-62 (11th Cir. 2012)
(finding that the district court correctly concluded it did
not have jurisdiction where in order to grant the relief
sought it would have to contradict two previously issued
FCC orders); Am. Bird Conservancy v. FCC, 545 F.3d
1190, 1193-94 (9th Cir. 2008) (court found that the district court did not have jurisdiction after defendants
challenged that the FCC did not comply with its statutory obligation under the Endangered Species Act, despite the attempt to frame the case as a ‘failure to act,’
where the court found that seven FCC approvals of
licenses for towers were being directly challenged);
Murphy v. DCI Biologicals Orlando, LLC, 797 F.3d

83
1302, 1307 (11th Cir. 2015) (finding that the district
court rightly refused to consider the TCPA case where
the plaintiff directly challenged the FCC order); Morse
v. Allied Interstate, LLC, 65 F. Supp. 3d 407 (M.D. Pa.
2014) (holding that where the defendant was asking the
court to disregard the interpretation of two FCC orders, its defense was subject to the Hobbs Act); Compare IMHOFF Inv., L.L.C. v. Alfoccino, Inc., 792 F.3d
627, 637 (6th Cir. 2015) (noting that where the FCC’s
reasoning in a letter brief was questioned, there was no
direct challenge to the legitimacy of FCC definitions,
and thus the Hobbs Act was not applied); Physicians
Healthsource, Inc. v. Stryker Sales Corp., No. 1:12-CV0729, 2015 U.S. Dist. LEXIS 178592, *4-5 (W.D. Mich.
Feb. 26, 2015) (refusing to apply the Hobbs Act and
distinguishing between “facial” and “as applied” challenges of a final FCC order, and noting that the outcome of the case did “not depend on any final determination made by the FCC.”).
Despite Defendants’ mischaracterizations to the
contrary, Plaintiffs are not trying to elude the jurisdiction of the court of appeals by artful pleading and are
not challenging the FCC rulings that obviously do not
apply to them. Rather, as clearly stated in the First
Amended Complaint, Plaintiffs are challenging the
constitutionality of the cell phone call ban. This Court
has jurisdiction to preside over this case as Plaintiffs
are challenging the constitutionality of a provision of
the TCPA itself. See 28 U.S.C. § 1331.

84
C.

Plaintiffs satisfy the standing requirements as
finding the cell phone call ban unconstitutional
as a violation of Plaintiffs’ First Amendment
rights would redress their injury.

In their Memorandum, Defendants appropriately set
forth the standing standard for plaintiffs, including organizational plaintiffs, as enunciated by the U.S. Supreme Court, as well as by the Fourth Circuit in Doe v.
Va. Dep’t of State Police, 713 F.3d 745, 753 (4th Cir.
2013) and White Tail Park v. Stroube, 413 F.3d 451, 458
(4th Cir. 2005) 5 . See Doc. 23, pp. 6-7. Defendants do
not argue, nor could they, that Plaintiffs have not suffered an actual or threatened injured by their inability
to make ATDS, or artificial or prerecorded voice calls as
a result of the cell phone call ban as Plaintiffs have
averred that they “would make these calls to persons
who did not provide prior express consent to it using an
ATDS, artificial or prerecorded voice but for the cell
phone call ban and the potential for prosecution by the
federal government, states, or private persons or clasSee also Equity in Athletics, Inc. v. Dep’t of Educ., 639 F.3d 91,
100 (4th Cir. 2011) (“Where, as here, the plaintiff is an organization
bringing suit on behalf of its members, it must satisfy three requirements to secure organizational standing: (1) that its members
would have standing to sue as individuals; (2) that the interests it
seeks to protect are germane to the organization’s purpose; and (3)
that the suit does not require the participation of individual members. Hunt v. Washington State Apple Advertising Comm’n, 432
U.S. 333, 343 (1977). Individual members of the organization must
be able to show that (1) they suffered an actual or threatened injury
that is concrete, particularized, and not conjectural; (2) the injury is
fairly traceable to the challenged conduct; and (3) the injury is likely
to be redressed by a favorable decision. Lujan v. Defenders of
Wildlife, 504 U.S. 555, 560-61 (1992); Miller v. Brown, 462 F.3d 312,
316 (4th Cir.2006)”).
5

85
ses of persons.” See Doc. 18, ¶¶ 8-12 and Declarations
at Doc. 18-2 to 18-6; see also Doe, 713 F.3d at 753.
Similarly, there can be no issue that Plaintiffs’ injury is
traceable to the cell phone call ban. See id. Rather,
Defendants allege Plaintiffs lack standing because they
cannot show that any injury they have suffered would
be redressed by a judgment in their favor. Doc. 23, p. 7;
see also Doe, supra at 753. This argument once again
relies on the false assumption that Plaintiffs are challenging the regulatory exemptions to the cell phone call
ban and not the cell phone call ban itself.
Under Article III of the U.S. Constitution, “[a]n injury is redressable if it is ‘likely, as opposed to merely
speculative, that the injury will be redressed by a favorable decision.’ ” Id. at 755 (quoting Friends of the Earth,
Inc. v. Laidlaw Envtl. Servs. (TOC), Inc., 528 U.S. 167,
181 (2000)). “No explicit guarantee of redress to a plaintiff is required to demonstrate a plaintiff ’s standing.”
Equity in Athletics, Inc. v. Dep’t of Educ., 639 F.3d 91,
100 (4th Cir. 2011). In assessing standing, the Equity
in Athletics, Inc., the court noted:
This court assumes the merits of a dispute will be
resolved in favor of the party invoking our jurisdiction in assessing standing and, at the pleading stage,
“presumes that general allegations embrace those
specific facts that are necessary to support the claim.”
Lujan v. National Wildlife Federation, 497 U.S. 871,
889, 110 S. Ct. 3177, 111 L. Ed. 2d 695 (1990); see also
Parker v. District of Columbia, 478 F.3d 370, 377
(D.C. Cir. 2007), aff ’d by District of Columbia v.
Heller, 554 U.S. 570, 128 S. Ct. 2783, 171 L. Ed. 2d
637 (2008) (“The Supreme Court has made clear that
when considering whether a plaintiff has Article III

86
standing, a federal court must assume arguendo the
merits of his or her legal claim.”).
Id. at 99. Therefore, the arguments put forth by Defendants in their Memorandum that the Court will
ultimately rule in their favor because the TCPA has
been upheld previously, or based on Defendants’ erroneous contention that Plaintiffs are attacking the FCC
orders or debt collection exemption, are irrelevant and
do not overcome the assumption that the merits of the
dispute will be resolved in the favor of Plaintiffs.
Moreover, as will be shown on a hearing on the merits,
the cell phone call ban as applied is unconstitutional as
the First Amendment prohibits discrimination as to the
content of speech or the identity of the speaker. Reed
v. Town of Gilbert, ___ U.S. ___, 135 S. Ct. 2218, 2227
(2015) (“Government regulation of speech is contentbased if a law applies to particular speech because of the
topic discussed or the idea or message expressed.”).
The cell phone call ban places a significant burden on
Plaintiffs as they are required to obtain prior express
consent to make ATDS, or artificial or prerecorded voice
calls to cell phones, while the cell phone call ban permits
other speakers, including commercial debt collectors, to
disseminate commercial speech without regard to the
cell phone call ban. The cell phone call ban severely
hinders Plaintiffs’ attempts to reach citizens and engage
them in political discourse. Finding the cell phone call
ban unconstitutional will allow Plaintiffs to more easily
engage with constituents, which parallels the First
Amendment’s “profound national commitment” to the
principle that “debate on public issues should be uninhibited, robust, and wide-open,” and has “consistently
commented on the central importance of protecting

87
speech on public issues.” Boos v. Barry, 485 U.S. 312,
318 (1998). Therefore, Plaintiffs satisfy the Article III
standing requirement as determining that the cell
phone call ban is unconstitutional would redress their
injury.
IV. CONCLUSION

The district court has jurisdiction in this case as
Plaintiffs are challenging the constitutionality of cell
phone call ban, a provision of the TCPA, and are not
seeking by this proceeding to enjoin, set aside, annul, or
suspend any order of the FCC.
Plaintiffs also satisfy Article III’s standing requirement as they have sufficiently alleged that they have
(1) suffered an actual or threatened injury that is concrete, particularized, and not conjectural; (2) the injury
is fairly traceable to the challenged conduct; and (3) the
injury is likely to be redressed by redress their injury.
For the foregoing reasons, this Court should deny Defendants’ Motion to Dismiss First Amended Complaint.
* * * * *

88
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NORTH CAROLINA
WESTERN DIVISION

Civil Action No. 5:16-cv-00252-D
AMERICAN A SSOCIATION OF POLITICAL CONSULTANTS,
INC.; DEMOCRATIC PARTY OF OREGON, INC.;
PUBLIC POLICY POLLING, LLC; TEA PARTY FORWARD
PAC; AND WASHINGTON STATE DEMOCRATIC CENTRAL
COMMITTEE, PLAINTIFFS
v.
JEFFERSON SESSIONS, IN HIS OFFICIAL CAPACITY
AS ATTORNEY GENERAL OF THE UNITED STATES AND
FEDERAL COMMUNICATIONS COMMISSION,
A FEDERAL AGENCY, DEFENDANTS
Filed: May 19, 2017
PLAINTIFFS’ BRIEF IN SUPPORT OF MOTION
FOR SUMMARY JUDGMENT

* * * * *
II.

SUMMARY OF THE CASE

Plaintiffs American Association of Political Consultants, Inc. (“AAPC”), Democratic Party of Oregon, Inc.
(“DPO”), Public Policy Polling, LLC (“PPP”), Tea
Party Forward PAC (“TPF”), and Washington State
Democratic Central Committee (“WSDCC”) (collectively
“Plaintiffs”) filed this lawsuit against Defendant Loretta

89
Lynch,2 in her official capacity as Attorney General of
the United States, for declaratory judgment and preliminary and permanent injunctions to restrain Defendant from acting under color of law to deprive Plaintiffs
of rights secured to them by the First Amendment to
the U.S. Constitution. Dkt. No. 1, ¶¶ 1-2.
In response, Defendant Lynch filed a motion to dismiss Plaintiffs’ complaint for lack of subject-matter jurisdiction. See Dkt. Nos. 15 and 16. Plaintiffs then filed
their first amended complaint and added the FCC as a
defendant. See Dkt. No. 18. Defendants subsequently
filed a motion to dismiss Plaintiffs’ first amended complaint for lack of subject-matter jurisdiction. See Dkt.
Nos. 22 and 23.
On March 15, 2017, this Court ruled that it has subjectmatter jurisdiction over this claim, and Plaintiffs have
standing to bring this constitutional challenge. See
Dkt. No. 26.
Plaintiffs allege the cell phone call ban violates the
First Amendment because it is a content-based restriction of Plaintiffs’ fully-protected political speech
and cannot withstand strict scrutiny. Dkt. No. 18, ¶ 2.
This case is a challenge to only the cell phone call ban,
based on the litany of content-based exemptions to it
created by Congress and the FCC.

On February 19, 2017, Jefferson Sessions assumed the position
of Attorney General of the United States. A public officer’s “successor is automatically substituted as a party.” Fed. R. Civ. P. 25(d).
2

90
Plaintiffs do not challenge the entirety of the TCPA, 3
nor are they challenging those exemptions. Id. at ¶ 4.
The history of the FCC and Congress’ creation of, and
ability and intent to continue to create content-based
exemptions to the cell phone call ban demonstrates that
it is unconstitutional. Id. at ¶ 3.
Based upon a joint discovery plan and scheduling
order (Dkt. No. 21), the Parties have agreed that it is
appropriate for the Court to resolve this constitutional
facial challenge on cross-motions for summary judgment. Plaintiffs now respectfully move this Court to
grant it summary judgment for the following reasons.
* * * * *
V.

LANGUAGE OF THE TCPA’S CELL BAN

* * * * *
The FCC and Congress have passed at least seven
exemptions to the cell phone call ban which apply based
on the content of the calls and the identities of the
callers.
In 1992, the FCC exempted from the cell phone call
ban prerecorded and ATDS calls by a wireless carrier to
its customer when the customer is not charged. Id.
(reaff ’d by 77 Fed. Reg. 34233, 34235 (June 11, 2012)
(the “wireless carrier exemption”)).
While other courts have addressed the constitutionality of the
TCPA, these cases challenged the entirety of the statute or did not
consider the content-based exemptions challenged in this case.
See, e.g., Gomez v. Campbell-Ewald Co., 768 F.3d 871, 876 (9th Cir.
2014); Moser v. Fed. Commc’n Comm’n, 46 F.3d 970, 973 (9th Cir.
1995); Wreyford v. Citizens for Transp. Mobility, Inc., 957 F. Supp.
2d 1378, 1380 (N.D. Ga. 2013).
3

91
In 2014, the FCC exempted from the cell phone call
ban prerecorded and ATDS calls for “package delivery
notifications to consumers’ wireless phones either by
voice or text . . . so long as those calls are not charged
to the consumer recipient, including not being counted
against the consumer’s plan limits on minutes or texts,
and comply with the conditions. . . .” In the Matter
of Cargo Airline Ass’n Petition for Expedited Declaratory Ruling, 29 FCC Rcd 3432, 3439 (Mar. 27, 2014)
(the “package delivery exemption”).
In 2014, the FCC exempted from the cell phone call
ban prerecorded and ATDS “non-telemarketing voice
calls or text messages to wireless numbers . . . [that]
rely on a representation from an intermediary that they
have obtained the requisite consent from the consumer.”
In the Matter of GroupMe, Inc./Skype Communications
S.A.R.L., 29 FCC Rcd 3442, 3444 (Mar. 27, 2014) (the
“intermediary consent exemption”).
In 2015, the FCC exempted from the cell phone call
ban prerecorded and ATDS “non-telemarketing, healthcare calls that are not charged to the called party” and
“for which there is exigency and that have a healthcare
treatment purpose. . . .” In re Rules and Regs. Implementing the Tel. Consumer Prot. Act of 1991, 30 FCC
Rcd 7961, 8030-31 (July 10, 2015) (the “HIPAA exemption”).
In 2015, the FCC exempted from the cell phone call
ban prerecorded and ATDS calls regarding “(1) ‘transactions and events that suggest a risk of fraud or identity theft; (2) possible breaches of the security of customers’ personal information; (3) steps consumers can
take to prevent or remedy harm caused by data security
breaches; and (4) actions needed to arrange for receipt

92
of pending money transfers.’ ” In re Rules and Regs.
Implementing the Tel. Consumer Prot. Act of 1991,
30 FCC Rcd 7961, 8023 (July 10, 2015) (the “bank and
financial exemption”).
In 2015, Congress exempted from the cell phone call
ban prerecorded and ATDS calls “made solely to collect
a debt owed to or guaranteed by the United States”.
Pub. L. No. 114-74 § 301(a), 129 Stat. 588 (amending
47 U.S.C. § 227(b)(1)(A)(iii); 47 C.F.R. § 64.1200(a)(1)(iii))
(the “debt collection exemption”).
In 2016, the FCC exempted from the cell phone call
ban prerecorded and ATDS calls from federal government officials conducting official business. In re Rules
and Regs. Implementing the Tel. Consumer Prot. Act of
1991, 31 FCC Rcd 7394, 7400 (July 5, 2016) (the “official
federal government business exemption”).
The history of the FCC and Congress’ creation of,
and ability and intent to continue to create, contentbased exemptions to the cell phone call ban demonstrates that it is unconstitutional.
VI. ARGUMENT

* * * * *
B.

Defendants cannot satisfy strict scrutiny to justify
the cell phone call ban.

* * * * *
1.

The cell phone call ban is content based on
its face.

* * * * *

93
a.

The cell phone call ban exempts certain
types of calls based on the content of
the calls.

As explained in supra Part V, the FCC and Congress
have passed exemptions to the cell phone call ban which
apply based on the content of the speech. Based upon
these exemptions, calls which include the following
speech are more worthy than Plaintiffs’ political speech:


package delivery notifications in the package
delivery exemption, see 29 FCC Rcd at 3439;



healthcare-related calls in the HIPAA exemption, see 30 FCC Rcd at 8030-31;



fraud, security and money transfer notifications in the bank and financial exemption, see
id. at 8023;



debts owed to or guaranteed by the United
States in the debt collection exemption, see
47 U.S.C. § 227(b)(1)(A)(iii); 47 C.F.R.
§ 64.1200(a)(1)(iii); and



official federal government business in the
official federal government business exemption, see 31 FCC Rcd at 7400.

Because the cell phone call ban applies to Plaintiffs’
political speech but exempts these types of calls, it is a
content-based restriction on speech and subject to strict
scrutiny.

94
b.

The cell phone call ban exempts certain
types of calls based on the identities of
the callers.

Laws designed or intended to suppress or restrict the
expression of specific speakers contradict basic First
Amendment principles. See United States v. Playboy
Entm’t Group, 529 U.S. 803, 812 (2000).
The FCC and Congress have passed exemptions to
the cell phone call ban which apply based on the identities of the callers. Based upon these exemptions, calls
made by the following speakers are more worthy than
Plaintiffs’ political speech:


calls made by wireless carriers in the wireless carrier exemption, see 77 Fed. Reg. at
34235;



calls made by intermediaries in the intermediary consent exemption, see 29 FCC Rcd
at 3444; and



calls made by federal government officials in
the official federal government business exemption, see 31 FCC Rcd at 7400.

Because the cell phone call ban applies to Plaintiffs’
political speech but exempts calls from the above types
of speakers, it is a content-based restriction on the
identities of the callers and subject to strict scrutiny.
* * * * *
E.

Plaintiffs are entitled to reasonable attorneys’
fees if they prevail.

To the extent required by law, Plaintiffs provide notice that they intend to move for an award of reasonable

95
attorneys’ fees and costs if they are the prevailing party
in this matter. See 28 U.S.C. § 2412.
The term “prevailing party” means that a plaintiff
must achieve a “material alteration of the legal relationship of the parties” and there must be “judicial imprimatur on the change.” Daimler Trust v. Prestine
Annapolis, LLC, 2016 U.S. Dist. LEXIS 75014, at
*20-21 (D. Md. June 7, 2016) (quoting Buckhannon Bd.
& Care Home, Inc. v. W. Virginia Dep’t of Health &
Human Res., 532 U.S. 598, 604-05 (2001)); see also
Grissom v. The Mills Corp., 549 F.3d 313, 318 (4th Cir.
2008).
Should the Court determine the cell phone call ban is
unconstitutional, it should therefore find Plaintiffs to be
the prevailing party and award them reasonable attorneys’ fees.
VII. CONCLUSION

The outcome of this motion rests on the fact that the
cell phone call ban is contrary to the protections afforded to political speech by the First Amendment to
the U.S. Constitution. Dun & Bradstreet, 472 U.S. at
758-59. The FCC and Congress have created exemptions to the cell phone call ban based on the content of
the calls and the identities of the callers.
The cell phone call ban violates the First Amendment as a content-based restriction on speech that discriminates against some speakers but not others without
a legitimate, neutral justification for doing so. See
Cahaly, 769 F.3d 399.
Courts must apply strict scrutiny to content-based
restrictions of speech. Citizens United, 558 U.S. at
339. But the government has failed to prove that the

96
cell phone call ban is narrowly tailored to further a
compelling governmental interest and is the least restrictive means available to achieve its purported interest. Holt, 135 S. Ct. at 863.
The cell phone call ban cannot survive strict scrutiny
and is therefore unconstitutional. See Reed, 135 S. Ct.
2218. As there is no genuine dispute of material fact,
Plaintiffs are entitled to judgment as a matter of law.
* * * * *

97
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NORTH CAROLINA
WESTERN DIVISION

Civil Action No. 5:16-cv-00252-D
AMERICAN A SSOCIATION OF POLITICAL CONSULTANTS,
INC.; DEMOCRATIC PARTY OF OREGON, INC.;
PUBLIC POLICY POLLING, LLC; TEA PARTY FORWARD
PAC; AND WASHINGTON STATE DEMOCRATIC CENTRAL
COMMITTEE, PLAINTIFFS
v.
JEFFERSON SESSIONS, IN HIS OFFICIAL CAPACITY
AS ATTORNEY GENERAL OF THE UNITED STATES AND
FEDERAL COMMUNICATIONS COMMISSION,
A FEDERAL AGENCY, DEFENDANTS
Filed: July 5, 2017
PLAINTIFFS’ RESPONSE AND REPLY TO
DEFENDANTS’ MEMORANDUM IN OPPOSITION
TO PLAINTIFFS’ MOTION FOR SUMMARY
JUDGMENT AND IN SUPPORT OF DEFENDANTS’
CROSS-MOTION FOR SUMMARY JUDGMENT
I.

INTRODUCTION

Please consider once more two telephone calls. The
first is from the Democratic Party urging residents of a
given district to vote in the upcoming election. A volunteer makes the call using an automatic telephone dialing
system (“ATDS”) to a voter, but the volunteer doesn’t
know that the number called is a cell phone. The second
is from a debt collector to a debtor concerning a de-

98
faulted government-backed mortgage. This call is also
placed using an ATDS, and the only number available is
a cell phone number.
The first call is banned by the Telephone Consumer
Protection Act (“TCPA”), 47 U.S.C. § 227(b)(1)(A)(iii)
(the “cell phone call ban”). The second call is not.1 The
exempt debt collection call has a significant effect on the
privacy of the recipient, but it seems likely that the first
call would be more welcomed by the recipient. The
TCPA cell phone call ban is therefore a content-based
restriction of speech, subject to strict scrutiny under
the First Amendment. It cannot withstand strict scrutiny and is therefore unconstitutional.
II.

ARGUMENT

When Congress passed the TCPA, it gave the Federal Communications Commission (“FCC”) power to
create exemptions to its restrictions, including to the
TCPA cell phone call ban. Since 1992, the FCC has
created seven exemptions to the TCPA cell phone call
ban.
Congress also has the power to create exemptions to
the cell phone call ban. It has done so, for example by
including an exemption for any entity placing calls
solely collecting debt owed to or guaranteed by the
federal government.
By creating this exemption based on the content of
the speech, Congress has caused the TCPA cell phone
call ban to be a content-based restriction of speech.
See discussion of Brickman v. Facebook, Inc., 2017 U.S. Dist.
LEXIS 11849 (N.D. Cal. Jan. 27, 2017) (“Brickman”) and the cell
phone call ban debt collection exemption, infra at B1.
1

99
The FCC, in including exemptions based on the content
of speech and the identity of speakers, has also caused
the cell phone call ban to be a content-based restriction
of speech.
Further, because Congress and the FCC have the
power to create future content-based exemptions, the
TCPA cell phone call ban cannot be cured of its unconstitutionality by striking those exemptions. Congress
and the FCC would still have the power, which they
have used and likely intend to use in the future, to
create content-based exemptions. Under this Circuit’s
ruling in Cahaly v. LaRosa, 796 F.3d 399 (4th Cir. 2015)
(“Cahaly”), the cell phone call ban cannot withstand
strict scrituny and is therefore unconstitutional.
A.

Defendants cannot distinguish Reed, as it is
undisputed that the exemptions apply based on
the content of speech.

* * * * *
2.

The FCC has exercised its power to create
content-based exemptions.

Defendants attempt to argue that the FCC’s contentbased exemptions “are not actually exemptions at all.”
Defs.’ Brief at 14. But whether by FCC order, interpretation, or otherwise, some speakers’ calls are exempt
based on the speakers’ identity or the content of the
calls, and some are not. The provisions of the First
Amendment are not so easily evaded. Governmental
restraint on speech need not fall into familiar or traditional patterns to be subject to constitutional limitations.
Miami Herald Pub. Co., Div. of Knight Newspapers, Inc.
v. Tornillo, 418 U.S. 241, 256 (1974) (citing Grosjean v.
American Press Co., 297 U.S. 233, 244-45 (1936)).

100
The FCC has created exemptions that favor certain
speakers over others, including:


calls made by wireless carriers in the wireless carrier exemption, see 77 Fed. Reg. at
34235;



calls made by intermediaries in the intermediary consent exemption, see 29 FCC Rcd
at 3444; and



calls made by federal government officials in
the official federal government business exemption, see 31 FCC Rcd at 7400.

Ptfs.’ Brief in Support of Motion for Summ. J., Dkt. 31
(May 19, 2017) (“Ptfs.’ Brief ”) at 18.
The FCC has also created exemptions that favor certain messages with certain content over others, including:


package delivery notifications in the package
delivery exemption, see 29 FCC Rcd at 3439;



healthcare-related calls in the HIPAA exemption, see 30 FCC Rcd at 8030-31;



fraud, security and money transfer notifications in the bank and financial exemption, see
id. at 8023; and



official federal government business in the
official federal government business exemption, see 31 FCC Rcd at 7400.

Ptfs.’ Brief at 17.
There is no reason to believe the FCC will refrain from
creating future content-based exemptions, by order, interpretation, or otherwise.

101
3.

Congress believes it has the power to create
content-based exemptions.

Congress, similarly, believes it has the power to create content-based exemptions favoring certain speakers
or messages.
Despite claims of Defendants, the debt collection exemption is not limited to calls to debtors of government or government backed debts. Pub. L. No. 114-74,
129 Stat. 584 (Nov. 2, 2015) at § 301(a), Brickman at *26.
Congress knew how to limit the TCPA’s application
in some respects to calls to certain people. For example, the “established business relationship” is part of an
exemption to the national “do-not-call” list. It is specifically limited to a relationship between a caller and a
specific residential subscriber.
The term “established business relationship”, for purposes only of subsection (b)(1)(C)(i), shall have the
meaning given the term in section 64.1200 of title 47,
Code of Federal Regulations, as in effect on January
1, 2003, except that—
(A) such term shall include a relationship between
a person or entity and a business subscriber subject to the same terms applicable under such section to a relationship between a person or entity
and a residential subscriber; and
(B) an established business relationship shall be
subject to any time limitation established pursuant to paragraph (2)(G)[)].
47 U.S.C. § 227(a)(2).

102
The FCC’s regulation then specifies that an established business relationship means:
a prior or existing relationship formed by a voluntary
two-way communication between a person or entity
and a residential subscriber with or without an exchange of consideration, on the basis of the subscriber’s purchase or transaction with the entity within
the eighteen (18) months immediately preceding the
date of the telephone call or on the basis of the subscriber’s inquiry or application regarding products
or services offered by the entity within the three
months immediately preceding the date of the call,
which relationship has not been previously terminated by either party . . .
47 C.F.R. § 64.1200(f )(5) (emphasis added).
The debt collection exemption contains no such limitation to calls to a specific person (e.g. the debtor) and
could apply to any call to any person, so long as the call
is made solely to collect a government or government
backed debt, e.g. employment verification, asset location, etc. There are likely tens of thousands of companies that issue government backed debt, including small
business loans, student loans, mortgages, etc. These
companies’ collection calls are allowed, while other debt
collectors’ calls are banned, as are the fully-protected
political calls placed by Plaintiffs.
4.

Severing the existing exemptions does not
cure this problem.

Severance of the content-based exemptions as Defendants’ argue is not a suitable cure for the cell phone
call ban’s unconstitutionality. See Defs.’ Brief at 17-20.
Severance does not solve the problem of the FCC and

103
Congress’s existing and actualized ability to create future
content-based exemptions.
Congress’s ability to amend the TCPA is ongoing.
Congress has amended the TCPA six times since it was
passed in 1991, Pub. L. No. 102-243 (Dec. 20, 1991), most
recently creating the debt collection exemption to the
cell phone call ban as part of the Bipartisan Budget Act
of 2015 Pub. L. No. 114-74 (Nov. 2, 2015). As explained,
Congress has given the FCC power to create future
exemptions. See 47 U.S.C. § 227(b)(2).
Severance of the existing content-based exemptions
would not cure the cell phone call ban’s unconstitutionality and contradicts long-standing First Amendment
jurisprudence that more speech, rather than less speech,
is the goal of this constitutional protection. See Whitney v. Cal., 274 U.S. 357 (1927). “If there be time to
expose through discussion the falsehood and fallacies, to
avert the evil by the processes of education, the remedy
to be applied is more speech, not enforced silence.” Id.
at 377.
The proper remedy is to allow more speech and
speakers by striking the cell phone call ban and allowing
the FCC or Congress to use other narrowly tailored, or
content-neutral, means to protect residential privacy.
* * * * *

104
No. 18-1588
IN THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

AMERICAN ASSOCIATION OF POLITICAL
CONSULTANTS, INC.; DEMOCRATIC PARTY OF OREGON,
INC.; PUBLIC POLICY POLLING, LLC; WASHINGTON
STATE DEMOCRATIC CENTRAL COMMITTEE,
PLAINTIFFS-APPELLANTS,
AND

TEA PARTY FORWARD PAC, PLAINTIFF
v.
FEDERAL COMMUNICATIONS COMMISSION;
JEFFERSON B. SESSIONS III, IN HIS OFFICIAL CAPACITY
AS ATTORNEY GENERAL OF THE UNITED STATES,
DEFENDANTS-APPELLEES
ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NORTH CAROLINA
WESTERN DIVISION

APPELLANTS’ OPENING BRIEF

William E. Raney
Kellie Mitchell Bubeck
COPILEVITZ & CANTER LLC
310 W 20th Street, Suite 300
Kansas City, MO 64108
Telephone: (816) 472-9000
Email: braney@cckc-law.com
kmitchell@cckc-law.com

Charles George
WYRICK ROBBINS YATES
& PONTON LLP
4101 Lake Boone Trail, Suite 300
Raleigh, NC 27607
Telephone: (919) 781-4000
Email: cgeorge@wyrick.com

Counsel for Appellants

105
* * * * *
STATEMENT OF THE ISSUE

Whether the ban on certain calls to cell phones in the
TCPA, 47 U.S.C. § 227(b)(1)(A)(iii), imposes an impermissible content-based restriction on protected speech
and, therefore, violates the First Amendment of the
United States Constitution.
STATEMENT OF THE CASE

* * * * *
10.

Proceeding Below.

* * *

* * * * *
19. This case is an appeal to the cell phone call ban,
only, based on the litany of content-based exemptions to
it created by the FCC and Congress. JA 012-13; 147-48.
The Political Organizations do not challenge the entirety
of the TCPA, nor are they challenging the exemptions
under the Hobbs Act, 28 U.S.C. § 2341 et seq. or otherwise. Id.
* * * * *
ARGUMENT

The Political Organizations challenge the constitutionality of the cell phone call ban as it imposes an
impermissible content-based restriction on protected
speech and, therefore, violates the First Amendment to
the Constitution. The Political Organizations are not
challenging the entirety of the TCPA, or the FCC orders

106
or regulations promulgated under the TCPA. 3 JA 141;
280. This lawsuit is a challenge to a federal statute, as it
is content-based and regulates the Political Organizations
fully-protected, political speech. The cell phone call ban
is therefore unconstitutional. Cahaly, 796 F.3d at 402.
I.

The cell phone call ban violates the First Amendment
because it is a content-based restriction of speech
and cannot withstand strict scrutiny.

The First Amendment reflects “a profound national
commitment to the principle that debate on public issues
should be uninhibited, robust, and wide-open.” N.Y.
Times Co. v. Sullivan, 376 U.S. 254, 270 (1964). Consequently, “speech on public issues occupies the highest
rung of the hierarchy of First Amendment values, and
is entitled to special protection.” Connick v. Myers,
461 U.S. 138, 145 (1983) (internal quotation marks
omitted).

In denying Attorney General Sessions and the FCC’s motion to
dismiss for lack of subject matter jurisdiction, the district court
correctly held that the Political Organizations “do not seek to enjoin,
set aside, annul or suspend any order of the FCC. Rather, plaintiffs challenge the autodialing ban in 47 U.S.C. § 227(b)(1)(a)(iii)
. . . they do not seek to show that the FCC’s orders delineating or
interpreting exceptions to the autodialing ban are void or invalid.”
JA 267-68. Nor does this Court need to determine that those
exemptions are unconstitutional to find the cell phone ban unconstitutional. Merely acknowledging the existence of the multiple
exemptions in these FCC orders does not make the present proceeding one to enjoin, set aside annul, or suspend those orders
within the meaning of 47 U.S.C. § 402(a). Id. That is, this is not a
Hobbs Act challenge.
3

107
A.

The calls prohibited by the cell phone ban are
fully protected by the First Amendment.

Political speech is protected at the very core of the
First Amendment. Buckley v. Valeo, 424 U.S. 1, 39
(1976). The Constitution affords the broadest protection
to political expression “to assure the unfettered interchange of ideas for the bringing about of political and
social changes desired by people.” McIntyre v. Ohio
Elec. Comm’n., 514 U.S. 334, 346 (1995) (internal quotation marks omitted). Political discourse is of the highest value to society, and any limitation placed upon it
comes with a heavy presumption of constitutional invalidity. Brown v. Hartlage, 456 U.S. 45, 52-53 (1982).
The Political Organizations engage in political speech
via autodialed and prerecorded telephone calls to encourage citizens to vote, advise them on political and
governmental issues, solicit political donations, and track
public opinion on candidates, campaigns, and other
political issues. JA 281-82. The cell phone call ban
prohibits these calls without prior express consent.
47 U.S.C. § 227(b)(1)(A)(iii). But it exempts other
autodialed and prerecorded commercial calls, including
calls made by the United States or its agents to collect a
debt owed to or guaranteed by the United States.
47 U.S.C. § 227(b)(1)(A)(iii); JA 284-86. This is quintessential commercial speech as these calls are made by
for-profit entities to collect on mortgages, student loans,
back taxes, and other debts owed to the federal government or commercial lenders of federally-guaranteed
debts. The cell phone call ban therefore favors commercial speech over the political speech of the Political
Organizations and violates the Constitution. See Metromedia, Inc. v. City of San Diego, 453 U.S. 490, 513 (1980).

108
B.

The cell phone call ban is content-based because
it restricts speech based on its subject matter
and its substantive message.

Adopting the reasoning of Reed v. Town of Gilbert,
this Court ruled that “ ‘the crucial first step in the contentneutrality analysis’ is to ‘determin[e] whether the law is
content neutral on its face.’ ” Cahaly, 796 F.3d at 405
(citing Reed v. Town of Gilbert, 135 S. Ct. 2218, 2228
(2015)). A statute is content based on its face if it
“draws distinctions based on the message a speaker conveys” or is facially content neutral but cannot be “justified without reference to the content of the regulated
speech,” Reed, 135 S. Ct. at 2227 (internal quotation
marks omitted).
The district court correctly held that the cell phone
call ban’s debt collection exemption is a content-based
speech restriction because, on its face, it distinguishes
calls based on the content of the message. JA 429 (citing
Cahaly, 796 F.3d at 405). The cell phone call ban
facially discriminates based on a call’s content because
it imposes liability for autodialed and prerecorded calls
placed without the recipient’s prior express consent
unless the calls are “made solely to collect a debt owed
to or guaranteed by the United States.” 47 U.S.C.
§ 227(b)(1)(A)(iii). Put differently, “a private debt collection agency may call the same consumer twice in a
row, once to collect a private, government-guaranteed
loan and once to collect a similar private loan not
guaranteed by the government, but, absent prior express consent, may place only the first call using an
autodialer or prerecorded voice.” Gallion v. Charter
Communs., Inc., 287 F. Supp. 3d 920, 926 (C.D. Cal.
2018) (internal quotation marks omitted).

109
The district court also properly rejected Attorney
General Sessions and the FCC’s argument that the debt
collection exemption is content-neutral based on the
relationship of the parties. JA 430. The plain language
of the debt collection exemption makes no mention to
the relationship of the parties. Id. at 927; see Brickman v. Facebook, Inc., 230 F. Supp. 3d 1036, 1045 (N.D.
Cal. 2017). In addition, the debt collection exemption
permits “a third party that has no preexisting relationship with the debtor” to use an autodialed or prerecorded voice to collect a debt owed to or guaranteed
by the United States. Gallion, 287 F. Supp. 3d at 927;
47 U.S.C. § 227(b)(1)(A)(iii). As a result, the debt collection exemption is “based on the subject matter of the
call regardless of the caller’s relationship to the recipient.” JA 430 (citing Greenley v. Laborers’ Int’l Union of
N. Am., 271 F. Supp. 3d 1128, 1148 (D. Minn. 2017); see
Gallion, 287 F. Supp. 3d at 927; Brickman, 230 F. Supp.
3d at 1045.
“A law that is content based on its face is subject to
strict scrutiny regardless of the government’s benign
motive, content-neutral justification, or lack of ‘animus
toward the ideas contained’ in the regulated speech.”
Reed, 135 S. Ct. at 2228 (citing Cincinnati v. Discovery
Network, Inc., 507 U.S. 410, 429 (1993)). An innocuous
justification cannot transform a facially content-based
law into one that is content neutral. Reed, 135 S. Ct. at
2228. But there is no innocuous justification for the
exemptions to the cell phone call ban as they show a
clear intent by the FCC and Congress to favor some
speech and speakers over others. It cannot be argued
with a straight face, for example, that a “get out the
vote” call has a more detrimental effect on residential
privacy than a debt collection call from a for-profit debt

110
collector regarding a defaulted federally-guaranteed
mortgage.
Even if the cell phone call ban was content neutral on
its face, it cannot be “justified without reference to the
content of the regulated speech.” Id. The district court
correctly noted that “[i]n order for a court to determine
whether a potential defendant violated the TCPA’s
government-debt exception, the court must review the
communicative content of the call.” JA 429. Accordingly, the cell phone call ban is content-based because a
court must review the call’s content to determine what
restrictions apply.
Similarly, a court must review the content of other
autodialed and prerecorded calls (not just debt collection calls) to determine if they fit within the other exemptions promulgated by the FCC. If the calls contain
information related to package deliveries, healthcarerelated calls exempted by HIPAA, security and money
transfers, or calls related to other official government
business, they are permitted under the cell phone call
ban with fewer restrictions than calls that contain
fully-protected political speech made by the Political
Organizations.
In addition, a law can still be content based if the text
is content neutral but the restriction was “adopted by
the government ‘because of disagreement with the message [the speech] conveys.’ ” Cahaly, 796 F.3d at 405
(citing Reed, 135 S. Ct. at 2228). It is clear the FCC
and Congress enacted the cell phone call ban because
they disagreed with the messages conveyed by nonfavored speakers using autodialed and prerecorded calls.
Cahaly, 796 F.3d at 405; Reed, 135 S. Ct. at 2227.

111
Finally, the cell phone call ban is content-based because it exempts calls based on the identity of the callers, e.g. for-profit debt collector agents of the federal
government. Laws designed or intended to suppress
or restrict the expression of specific speakers contradict
basic First Amendment principles. United States v.
Playboy Entm’t Group, 529 U.S. 803, 812 (2000). Yet
the exemptions carved out by the FCC and Congress
permit autodialed and prerecorded calls based on identified speakers including wireless carriers, intermediaries, and for-profit debt collector agents of the federal
government. The speech of these parties is favored
over the fully-protected political speech of the Political
Organizations, and thus the cell phone call ban is a
content-based restriction on speech and subject to strict
scrutiny.
C.

The FCC’s content-based restriction of certain
calls to cell phones cannot withstand strict
scrutiny.

Courts must apply strict scrutiny to determine the
constitutionality of content-based restrictions of speech.
Citizens United v. Fed. Election Comm’n, 558 U.S. 310,
340 (2010). This requires “the government to prove
that the restriction ‘furthers a compelling interest and
is narrowly tailored to achieve that interest.’ ” Id. (citing
Fed. Election Comm’n v. Wis. Right to Life, Inc., 551 U.S.
449, 464 (2000)); Cahaly, 796 F.3d at 405. Strict scrutiny
requires that the government use the “least restrictive
means” available among effective alternatives to accomplish its legitimate goal. Ashcroft v. ACLU, 542 U.S.
656, 666 (2004). If there are plausible less restrictive
alternatives available, then the statute cannot withstand
strict scrutiny. Cahaly, 796 F.3d at 405. Further, the

112
ameliorative actions of the FCC and Congress cannot
cure the unconstitutionality of the cell phone call ban.
1.

The cell phone call ban does not further a
compelling governmental interest.

The protection of residential privacy is undoubtedly
a compelling governmental interest. Carey v. Brown,
447 U.S. 455, 471 (1980). But the cell phone call ban
does not further this compelling governmental interest.
The exemptions carved out of the cell phone call ban
demonstrate that protection of residential privacy was
not the FCC or Congress’ purpose when they created
multiple exemptions to the cell phone call ban. See
105 Stat. 2394. There must have been some other purpose, as debt collection calls can have no less deleterious
effect on privacy than calls made by the Political Organizations. Commercial entities including wireless carriers, package delivery and healthcare companies, thirdparty-intermediaries, financial institutions, and government debt collectors are permitted to make autodialed
or prerecorded calls with fewer restrictions than imposed
on calls made by the Political Organizations engaging in
political speech.
These commercial entities are precisely the sources
of calls from whom the Court states the “unwilling listener” might want to be protected. JA 431 (citing
Frisby v. Schultz, 487 U.S. 474, 484-85 (1988); Gallion,
287 F. Supp. 3d at 928). There is no explanation for why
calls from such commercial entities, the government or
its for-profit debt collectors are any less intrusive or
less unwelcome than calls made by the Political Organizations that deliver constitutionally protected political
messages.

113
The cell phone call ban has become a way for the
FCC and Congress to favor certain speakers and content rather than protect telephone subscribers’ residential privacy. The intrusion into residential privacy
is not lessened merely by the fact that autodialed or
prerecorded calls to collect debt are made on behalf of
the United States as opposed to on behalf of a private
actor. The cell phone call ban fails to further a compelling governmental interest as demonstrated by the
exemptions.
* * * * *

114
No. 18-1588
IN THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

AMERICAN ASSOCIATION OF POLITICAL
CONSULTANTS, INC.; DEMOCRATIC PARTY OF OREGON,
INC.; PUBLIC POLICY POLLING, LLC; WASHINGTON
STATE DEMOCRATIC CENTRAL COMMITTEE,
PLAINTIFFS-APPELLANTS,
AND

TEA PARTY FORWARD PAC, PLAINTIFF
v.
FEDERAL COMMUNICATIONS COMMISSION;
JEFFERSON B. SESSIONS III, IN HIS OFFICIAL CAPACITY
AS ATTORNEY GENERAL OF THE UNITED STATES,
DEFENDANTS-APPELLEES
ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NORTH CAROLINA
WESTERN DIVISION

APPELLANTS’ REPLY BRIEF

William E. Raney
Kellie Mitchell Bubeck
COPILEVITZ & CANTER LLC
310 W 20th Street, Suite 300
Kansas City, MO 64108
Telephone: (816) 472-9000
Email: braney@cckc-law.com
kmitchell@cckc-law.com

Charles George
WYRICK ROBBINS YATES
& PONTON LLP
4101 Lake Boone Trail, Suite 300
Raleigh, NC 27607
Telephone: (919) 781-4000
Email: cgeorge@wyrick.com

Counsel for Appellants

115
* * * * *
INTRODUCTION

The cell phone call ban is a content-based speech
restriction because, on its face, it applies to calls based
on the content of the message. JA 429. It facially discriminates between calls and speakers based on content
because it bans some calls, like those from Appellants
(the “Political Organizations”), and allows others, i.e.
calls made solely to collect a debt owed to or guaranteed
by the United States. This Court must therefore apply
strict scrutiny to the cell phone call ban to determine its
constitutionality.
Attorney General Jefferson B. Sessions III and the
Federal Communications Commission have failed to
show that the cell phone call ban furthers a compelling
interest and is narrowly tailored to achieve that interest. Instead, they argue that (1) the cell phone call
ban’s debt collection exemption is a content-neutral
restriction based on the relationship between the government and the debtor; (2) even if the cell phone call
ban is content-based, it withstands strict scrutiny; and
(3) if the cell phone call ban is unconstitutional, the
proper remedy would be to strike down the exception
and uphold the remainder of the statute. See Appellees’ Br. 6-9. Each of these arguments fails.
ARGUMENT
A.

It is indisputable that the cell phone call ban is
content-based because it restricts speech based
on its subject matter and its substantive message.

Nearly half of Attorney General Sessions and the
FCC’s brief argues that the cell phone call ban’s debt
collection exemption is not based on the content of the

116
call, but the government’s relationship with the debtor.
Appellees’ Br. 9-16.
The debt collection exemption permits “a third party
that has no preexisting relationship with the debtor” to
use an autodialed or prerecorded voice to collect a debt
owed to or guaranteed by the United States. Gallion
v. Charter Communs., Inc., 287 F. Supp. 3d 920, 927
(C.D. Cal. 2018); 47 U.S.C. § 227(b)(1)(A)(iii). While
Attorney General Sessions and the FCC contend that it
is relationship based because it arises from a relationship between the called party and the Government,
(Appellees’ Br. 11), the debt collector making the call
often has no relationship with the call recipient. As a
result, the debt collection exemption is “based on the
subject matter of the call regardless of the caller’s relationship to the recipient.” JA 430 (citing Greenley v.
Laborers’ Int’l Union of N. Am., 271 F. Supp. 3d 1128,
1148 (D. Minn. 2017); see Gallion, 287 F. Supp. 3d at
927; Brickman v. Facebook, Inc., 230 F. Supp. 3d 1036,
1045 (N.D. Cal. 2017)).
The district court correctly held that the cell phone
call ban’s debt collection exemption is a content-based
speech restriction because, on its face, it distinguishes
calls based on the content of the message. JA 429 (citing
Cahaly v. Larosa, 796 F.3d 399, 405 (4th Cir. 2015).
The cell phone call ban facially discriminates based on a
call’s content because it imposes liability for autodialed
and prerecorded calls placed without the recipient’s prior
express consent unless the calls are “made solely to collect a debt owed to or guaranteed by the United States.”
47 U.S.C. § 227(b)(1)(A)(iii). Put differently, “a private
debt collection agency may call the same consumer twice
in a row, once to collect a private, government-guaranteed

117
loan and once to collect a similar private loan not guaranteed by the government, but, absent prior express
consent, may place only the first call using an autodialer
or prerecorded voice.” Gallion, 287 F. Supp. 3d at 926
(internal quotation marks omitted).
In addition, the cell phone call ban violates the First
Amendment based on the litany of content-based regulatory exemptions to it created by the FCC and Congress. Appellants’ Br. 2-4, 7; JA 012-13, 146-48.1 Since
1992, the FCC and Congress have created at least six
regulatory exemptions to the cell phone call ban which
apply based on the identity of the caller and/or the
content of the exempted calls. Appellants’ Br. 2-4; JA
012-13, 146-48.
The cell phone call ban exempts certain types of calls
based on the identities of the callers including calls
made by wireless carriers in the wireless exemption,
calls made by intermediaries in the intermediary consent exemption, and calls made by federal government
officials in the official federal government business
exemption. Appellants’ Br. 3-4; JA 012-13, 147-48, 291.
It also exempts certain types of calls based on the
content of the calls including package delivery notifications in the package delivery exemption, healthcareContrary to the assertion in Attorney General Sessions and the
FCC’s brief, the Political Organizations have not abandoned the
argument that the cell phone call ban violates the First Amendment
based on the numerous content-based exemptions to it created by
the FCC and Congress. See Appellees’ Br. 16. The Political
Organizations specifically discussed the FCC’s regulatory exemptions to the TCPA in their opening brief (Appellants’ Br. 2-4, 7, FN
3), and argued that the creation of, and the ability and intent to
continue to create content-based exemptions to the cell phone call
ban made it unconstitutional. Appellants’ Br. 26.
1

118
related calls in the HIPAA exemption, and official federal government business in the official federal government business exemption. Appellants’ Br. 3-4; JA
012-13; 147-48, 290.
The speech of these parties is favored over the fullyprotected political speech of the Political Organizations,
and thus the cell phone call ban is a content-based
restriction on speech and subject to strict scrutiny.
While this Court does not need to determine that those
exemptions are unconstitutional to find the cell phone
ban unconstitutional, the creation of, and ability and
intent to continue to create, content-based exemptions
to the cell phone call ban demonstrates that it is unconstitutional.
Because the cell phone call ban is a content-based
speech restriction, this Court must apply strict scrutiny
to its analysis.
B.

As a content-based restriction on speech, the cell
phone call ban fails to satisfy strict scrutiny.

* * * * *
In addition, the cell phone call ban is not narrowly
tailored to further a compelling governmental interest.
Reed v. Town of Gilbert, 135 S. Ct. 2218, 2231 (2015).
“Content-based laws—those that target speech based on
its communicative content—are presumptively unconstitutional and may be justified only if the government
proves that they are narrowly tailored to serve compelling state interests.” Id. at 2226; R.A.V. v. St. Paul,
505 U.S. 377, 395 (1992).
While narrow tailoring does not require perfect tailoring, Williams-Yulee v. Fla. Bar, 135 S. Ct. 1656, 1671
(2015), the restriction cannot be underinclusive or over-

119
inclusive in the speech that it restricts. Cahaly, 796 F.3d
at 405. Contrary to the district court’s finding, the cell
phone call ban is both, and Attorney General Sessions
and the FCC have not met their burden of proof to show
that it is narrowly tailored to serve a compelling interest.
Similar to the statute at issue in Cahaly, the cell phone
call ban is underinclusive because it permits calls from
certain exempted commercial entities including wireless carriers, package delivery and healthcare companies, third-party-intermediaries, financial institutions,
and government debt collectors. JA 294; see Cahaly,
796 F.3d at 406. These calls have the same—if not worse
—effect on telephone subscribers’ residential privacy
than calls made by the Political Organizations that deliver constitutionally protected political messages.
Far from a narrow exception that furthers a compelling interest, the debt collection exemption permits
calls made by thousands of for-profit entities collecting
mortgages, student loans, back taxes, and other debts
owed to the federal government or federally-guaranteed
debts. Attorney General Sessions and the FCC even
acknowledged the extent of delinquent debt owed to the
United States in 2015: $162.1 billion. Appellees’ Br. 18.
Furthermore, restrictions on speech cannot be “overinclusive by unnecessarily circumscribing protected expression.” Cahaly, 796 F.3d at 405 (internal quotation
marks omitted). But the cell phone call ban does just
that. It is overinclusive because it prohibits autodialed
or prerecorded calls consumers desire, expect, or benefit from, including calls made by the Political Organizations that contain fully-protected speech such as “get
out the vote” calls, survey and other important informational calls, and voter registration drives. JA 021-34;

120
157-76. As this Court noted, “[c]omplaint statistics show
that unwanted commercial calls are a far bigger problem than unsolicited calls from political or charitable
organizations.” Cahaly, 796 F.3d at 406. The cell phone
call ban fails to acknowledge this by exempting for-profit
entities to collect on mortgages, student loans, back taxes,
and other debts owed to the federal government or
federally-guaranteed debts without the prior express
consent of the recipient. 47 U.S.C. § 227(b)(1)(A)(iii).
Finally, there are less restrictive means available to
achieve the FCC and Congress’ purported interest in
residential privacy. Holt v. Hobbs, 135 S. Ct. 853, 863
(2015). “If a less restrictive alternative would serve the
Government’s purpose, the legislature must use that
alternative.” United States v. Playboy Entm’t Grp.,
529 U.S. 803, 812 (2000); Cahaly, 796 F.3d at 405.
Despite the similarities between the South Carolina
statute and the cell phone call ban—both prohibit political calls without consent, but exempt certain commercial calls—the district court rejected this Court’s
reasoning that less restrictive alternatives to the cell
phone call ban exist, despite no greater showing by the
Government here than what was shown in Cahaly. JA
435-36.
It held that behavioral restrictions such as time of
day limitations, mandatory disclosure of the caller’s
identity, disconnection requirements, and “do-not-call”
lists are not more effective, less restrictive alternatives
that preserve the privacy interests of residential telephone subscribers as applied to the TCPA. Id.

121
The district court incorrectly reasoned that the time
of day restriction would “designate a time for intrusive
phone calls.” JA 436 (citing Brickman, 230 F. Supp. 3d
at 1048; Gallion, 287 F. Supp. 3d at 924; Greenley,
271 F. Supp. 3d at 1151; Mejia v. Time Warner Cable,
Inc., No. 15-cv-6445 (JPO), 2017 U.S. Dist. LEXIS
120445, at *49 (S.D.N.Y. Aug. 1, 2017); Holt v. Facebook,
Inc., 240 F. Supp. 3d 1021, 1034 (N.D. Cal. 2017)). And
the “[m]andatory disclosure of a caller’s identity and
disconnection requirements . . . would not prevent the
privacy intrusion from the phone call in the first place.”
Id. (citing Brickman, 230 F. Supp. 3d at 1048-49; see
Gallion, 287 F. Supp. 3d at 924; Greenley, 271 F. Supp. 3d
at 1151; Mejia, 2017 U.S. Dist. LEXIS 120445, at *49;
Holt, 240 F. Supp. 3d at 1034). In addition, “do-not-call”
lists place the burden on consumers to opt-out of intrusive calls. Id. (citing Brickman, 230 F. Supp. 3d at 1049;
Gallion, 287 F. Supp. 3d at 924; Greenley, 271 F. Supp.
3d at 1151; Mejia, 2017 U.S. Dist. LEXIS 120445, at
*49; Holt, 240 F. Supp. 3d at 1034).
Despite finding that less restrictive alternatives to the
cell phone call ban do not exist, the district court then
justified that the debt collection exemption is narrowly
tailored because of those same sort of behavioral restrictions adopted by the FCC for those calls. JA 432-33.
The district court relied on the reasoning of Gallion to
distinguish the “unlimited proliferation” of certain signs
in Reed with the supposedly narrowly-tailored debt
collection exemption. Id.; Gallion, 287 F. Supp. 3d at
930. Gallion held that the debt collection exemption is
“cabined by the TCPA’s express grant of authority to the
FCC to ‘restrict or limit the number and duration of calls
made . . . to collect a debt owed to or guaranteed by
the United States.’ ” Id. (citing 47 U.S.C. § 227(b)(2)(H)).

122
In addition, Gallion noted that the debt collection
exemption may be further limited by a rule proposed by
the FCC limiting the number of federal debt collection
calls to three within a 30-day period and limiting call
lengths to 60 seconds or less. Gallion, 287 F. Supp. 3d
at 930 (citing In re Rules & Regulations Implementing
the Tel. Consumer Prot. Act of 1991, Report and Order,
31 FCC Rcd. 9074, ¶¶ 32-49 (Aug. 11, 2016)). Interestingly, in that same order, the FCC contemplates permitting “federal agencies . . . [to] request a waiver
seeking a different limit on the number of autodialed,
prerecorded-voice, and artificial-voice calls that may be
made without consent of the called party.” Id. at 9090.
This is another example of the government using the
cell phone call ban as a way to benefit politically-favored
constituencies, including itself and for-profit debt collector agents of the federal government.
Either the behavioral restrictions are effective in reducing the intrusive nature of autodialed or prerecorded
calls into telephone subscribers’ residential privacy or
not. Logically, these type of restrictions cannot be
effective to ameliorate the intrusiveness of debt collection exemption but ineffective as applied to the bad
effect of political calls.
* * * * *

